<html>
<title> - STATUS OF TRIBAL FISH AND WILDLIFE MANAGEMENT PROGRAMS</title>
<body><pre>[Senate Hearing 108-121]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-121

         STATUS OF TRIBAL FISH AND WILDLIFE MANAGEMENT PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

 STATUS OF TRIBAL FISH AND WILDLIFE MANAGEMENT PROGRAMS ACROSS INDIAN 
                                COUNTRY

                               __________

                              JUNE 3, 2003
                             WASHINGTON, DC


87-608              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Brown-Schwalenberg, Patty, executive director, Chugach 
      Regional Resources Commission..............................    33
    Cooley, Jon, interim executive director, Southwest Tribal 
      Fisheries Commission.......................................    27
    Frank, Jr., Bill, chairman, Northwest Indian Fisheries 
      Commission.................................................     2
    Harris, Tom, president, and CEO, Alaska Village Initiatives, 
      Inc........................................................    36
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Jackson, Gordon, director, Business and Sustainable 
      Development Central Council, Tlingit and Haida Indians of 
      Alaska.....................................................    30
    Johnstone, Ed, Quinault Indian Nation........................     2
    Kelly, Bob, Nooksack Tribe...................................     2
    Matt, Clayton, executive director, Tribal Council, 
      Confederated Salish and Kootenai Tribes of the Flathead 
      Nation.....................................................    15
    Myers, Millard J., ``Sonny'', executive director, 1854 
      Authority..................................................    25
    New Breast, Ira, executive director, Native American Fish and 
      Wildlife Society...........................................    17
    Patt, Jr., Olney, executive director, Columbia River Inter-
      Tribal Fish Commission.....................................     9
    Seyler, Warren, chairman, Upper Columbia United Tribes.......    12
    Williams, Terry, Tulalip Tribes..............................     3
    Zorn, James E., Policy Analyst, Great Lakes Indian Fish and 
      Wildlife Commission........................................    22

                                Appendix

Prepared statements:
    Aitken, Sr., Gary, tribal chairman, Kootenai Tribe of Idaho..    44
    Barnet, John, chairman, Cowlitz Indian Tribe.................   180
    Brigham, N. Kathryn, member, board of trustees, Confederated 
      Tribes of the Umatilla Indian Reservation..................    50
    Brown-Schwalenberg, Patty....................................    53
    Cantwell, Hon. Maria, U.S. Senator from Washington...........    43
    Confederated Tribes of the Warm Springs Reservation of Oregon   181
    Cooley, Jon..................................................    58
    Frank, Jr., Bill (with attachments)..........................    67
    Harris, Tom..................................................   169
    Jackson, Gordon..............................................    78
    Matt, Clayton................................................    81
    Myers, Millard J., ``Sonny'' (with letter)...................    87
    New Breast, Ira..............................................    93
    Patt, Jr., Olney.............................................    98
    Peacock, Robert B., chairman, Fond du Lac Band of Lake 
      Superior Chippewa (with attachment)........................   101
    Seyler, Warren...............................................   106
    Spokane Tribe (with attachments).............................   109
    Teeman, Albert, chairman, Burns Paiute Tribe.................   183
    Upper Columbia United Tribes.................................   189
    Zorn, James E. (with attachments)............................   144

 
         STATUS OF TRIBAL FISH AND WILDLIFE MANAGEMENT PROGRAMS

                              ----------                              


                         TUESDAY, JUNE 3, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
485, Russell Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye and Murkowski.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets this 
morning to receive testimony on the status of tribal fish and 
wildlife management programs across Indian country.
    Ten years ago, this committee worked with the leaders of 
Native America to develop legislation that would provide 
support for the efforts of tribal governments to preserve and 
protect fish and wildlife resources. Although that legislation 
was not enacted into law, the members of this committee are 
aware that tribal fish and wildlife management programs have 
experienced exponential growth in their capacities to protect 
the health and well-being of natural resources and the humans 
who rely on these resources.
    Although it is widely recognized that tribal governments 
and intertribal fish and wildlife management organizations have 
been among the most effective stewards of natural resources, 
both on tribal lands and off, today it is more than ever clear 
that in many areas of Indian country, tribal governments are on 
the cutting edge of new technological advances that are 
assuring enhanced protections of fish and wildlife and plant 
resources.
    So we look forward to the testimony that the committee will 
receive, and I am pleased to call upon one of the great Indian 
leaders of our time, my dear friend Bill Frank, Jr., who 
happens to be the chairman of the Northwest Indian Fisheries 
Commission, but he will be speaking for Indian country this 
morning.
    Chairman Frank, you are always welcome here, sir.

   STATEMENT OF BILL FRANK, Jr., CHAIRMAN, NORTHWEST INDIAN 
 FISHERIES COMMISSION, ACCOMPANIED BY TERRY WILLIAMS, TULALIP 
 TRIBES; BOB KELLY, NOOKSACK TRIBE; AND ED JOHNSTONE, QUINAULT 
                         INDIAN NATION

    Mr. Frank. Good morning, Mr. Chairman. My name is Billy 
Frank, chairman of the Northwest Indian Fish Commission. It is 
an honor to be here before you again telling our story about 
the salmon in the Northwest, plus all of our management 
throughout our nation where Indian people are involved--the 
tribes.
    Today, we are here to support our Indian tribal fish and 
wildlife bill. For the sake of the salmon, the Pacific salmon 
throughout Alaska, the Pacific Ocean, the State of Washington, 
Oregon, California, all of our tributaries throughout the 
Northwest, we need this legislation. It would enhance all of 
the tribes throughout the Nation on all of our management, from 
the Great Lakes to the Southwest, and all of our country 
throughout the eastern seaboard.
    The tribes have been managers of the resource for thousands 
of years, but over the last 30 years that I have been chairman 
and involved in the fishery in the Northwest and seeing what 
happens throughout our Nation, our tribes have pretty well 
taken a place in management throughout our country. They have 
respect within their own areas with the local governments, as 
well as the cities, the States, the counties, and the Federal 
Government.
    We have models to show, and you are going to hear some of 
our stories in the next couple of days on what we have been 
doing throughout our country. In the Northwest, we have the 
tides twice a day. The tides come in and the tides go out. 
Senator, you have been on our water and you have seen our 
country, and you have seen all of our country throughout all of 
our nations, including our Native Alaskan people. You have 
visited our areas. We appreciate that. But our tides tell us 
how calm we are as Indian people and how patient we are. The 
tides come in and the tides go out.
    And then our country throughout the Southwest and 
throughout our Plains country, they wait for the rains--the 
rains that look across the country that make everything come to 
life. These are just some of the things that the Indian tribes 
live with, and it is a rhythm of nature of our country. It is a 
very important part of our lives that the rhythm is there. It 
is a very important part of our lives that we continue that.
    We are co-managers with the Federal Government, along with 
the States throughout our Nation, and that gives us a standing 
in the community that gives us respect. When you are managing 
the natural resources, whether it is on in-stream flows or 
water or our animals or our weather, our natural land, our 
lakes--whatever it might be--we can sit down and we can talk 
and we can find a balance with the community, with the State or 
the Federal Government.
    In the Northwest, the Magnuson-Stevens Act takes us 200 
miles out into the sea we manage as comanagers. Laws have been 
written into that act that the tribes will be at the table 
whenever there is a decision to be made on our resource. That 
is very good legislation that came from the U.S. Congress.
    We, as Indian people throughout our Nation, have to come to 
the U.S. Congress to ask for our funding, to ask for help, to 
ask that the United States continue its trust responsibility to 
protect our treaties and all of our way of life and our culture 
throughout our country. We have to come to Congress. We do 
every year, several times a year we come and we tell you what 
we are doing. We are responsible and accountable throughout the 
Nation, and we work together with the U.S. Congress, as well as 
the Federal Government and the States and the local 
governments.
    People have a different view sometimes about Indian people. 
It is not a good view. It is a bad view. They think we are the 
boogey-men. That is getting better in my time. I am now 72 
years old. I have been coming back to Congress for the past 30-
some years and reporting. I have seen a big difference in our 
Nation. I have seen a very positive move in Indian tribes. I 
really feel good when I visit Indian tribes in their country 
throughout our Nation they are flourishing with life and 
education. Very positive things are happening in our 
communities.
    I see our children growing. I see them being educated. We 
might have a lot of problems on our reservations, but we have 
an infrastructure to meet these problems now it is very 
important for all of us to have that strong infrastructure--the 
science, the policy and the legal issues, our court systems and 
all of that.
    So we are moving to a place in time where our tribes are 
looking good, as I say. So in the next day or two, you are 
going to hear our negatives and our positives, but you are 
going to hear us tell the story of our lives and our culture 
and how we think of our natural world out here. We have to be 
part of the management of our country, the tribes. We have to 
be partners with the Federal Government, partners with the 
States, partners with the local governments, and partners with 
the cities and the communities and the volunteers.
    If we can do that and have the backing of the U.S. Congress 
through legislation, we are going to be all right. We are going 
to be helpful in many, many ways.
    Thank you.
    [Prepared statement of Mr. Frank appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Frank. It is 
always good to see you with us, Billy. I hope all is well with 
you.
    Mr. Frank. Thank you.
    Senator Inouye. And now may I call upon the representatives 
of the Tulalip Tribes, Terry Williams; of the Nooksack Tribe, 
Bob Kelly; and of the Quinault Indian Nation, Ed Johnstone.
    Mr. Williams.

          STATEMENT OF TERRY WILLIAMS, TULALIP TRIBES

    Mr. Williams. Mr. Chairman, members of the committee, my 
name is Terry Williams from the Tulalip Tribes. With me is Bob 
Kelly from the Nooksack and Ed Johnstone from the Quinault. It 
is indeed a pleasure today to be able to be here, and to 
respond to the requests that you have made, the inquiries on 
the fish and wildlife in the Northwest.
    We will be submitting written testimony, and the written 
testimony will more than likely be more direct and identify the 
issues surrounding our discussion. Since we only have a limited 
amount of time, I will try to hit the highlights of what you 
will read in our testimony.
    The Pacific Northwest management of fish and wildlife over 
the years more recently has been guided by Supreme Court 
decisions. With those decisions, they have given us some 
direction in terms of how we structure ourselves in the co-
management process with the State of Washington and our 
behavior and management with the Federal agencies.
    Currently, though, we are going well beyond the directives 
of the court, having to deal with other issues--issues such as 
shellfish management, groundfish, wildlife, hatcheries and 
hatchery reform, dealing with environmental issues; 
environmental issues including the Clean Water Act and 
responsibilities that we have in our management to observe not 
only the laws, but the importance of having clean water for all 
of our resources.
    The tribes have clearly established themselves in the 
governmental role in this process. We have incorporated not 
only a new direction in management, but bringing in new 
technologies to help us deal with the problems that face us.
    Some of the issues we have been working through over the 
last decade have been that of management within the Pacific 
Salmon Treaty under the treaty with the United States and 
Canada; participating in the Pacific Fisheries Management 
Council; participating with the Federal agencies and the State 
on Endangered Species Act issues; development of shellfish and 
groundfish co-management programs.
    An example of what I just talked about are areas where we 
are lacking in terms of our ability, both in structure, in 
regulatory processes and in funding, is the groundfish, for 
example, with our coastal tribes from Quinault, Quileute, Hoh, 
Makah--those tribes that participate in ground fish are trying 
to continue and keep up with the Federal and State managers and 
trying to establish good management as we have with salmon, but 
without the resources.
    Some of the activities include hiring of port samplers, 
setting up observers on the ships; management and enforcement 
issues; plan development--we have to have management plans for 
all of our fisheries, including the ability to develop 
regulations. That is quite an expensive and difficult and time-
consuming process. We are trying to do that off of a shoestring 
budget, which has been difficult, to say the least.
    Another example is that of the shellfish. Bob Kelly and I 
belong to tribes that are participating in the shellfish 
management, after the recent court decision reinstating the 
management obligations that we have always had, and that is to 
look after and manage those resources in a way that supports 
our culture and our economies for the long term.
    In shellfish, we have to look at doing the management 
plans, the beach surveys. We have to deal with access issues 
with landowners, health and safety and things that hit the 
market, and enforcement, as in all other fisheries. These types 
of programs, again, are being developed by the tribes with 
limited budgets and limited support in terms of authorization 
and definitions in co-management. So we are looking for the 
ability to continue doing these types of programs in a way that 
is constructive.
    And, as always, we develop our plans based on scientific 
approaches in developing our regulations. Part of the 
development we have looked at are the rules and guidelines 
based on the secretarial order that we participated in 
developing. Tribes are currently also developing recovery plans 
for salmon as well as other species.
    In looking at what kind of technologies we have to provide 
information to us, we have a couple of programs dealing with 
databases that we rely on. One is the salmon and steelhead 
stock inventory that gives us an idea of the health of the 
species. The other is the salmon and steelhead habitat 
inventory assessments project that gives us the habitat 
information that the health of the species is based on. These 
are planning tools. We bring these planning tools into other 
processes such as the shared strategy process in Western 
Washington. That process is one that we helped to develop, 
bringing in tribal, Federal, State and local governments in 
salmon recovery.
    Development of recovery plans is challenging, and many 
times, we are not in sync with the Federal agencies or State 
agencies in finding the balance that works for us. One of the 
concerns is that the Federal agencies such as the National 
Marine Fisheries Service is sometimes looking at the fisheries 
in a more stringent manner than they do at the habitat issues 
that produce those fish. So we are trying to set up ways of 
evaluating the differences in that balance, and demonstrating 
that our actions are significant in the management we take.
    One of the things I think helps to point that out is with 
the coastal funds that are sent from Congress to the Northwest, 
to the States and to the tribes. In a recent assessment of the 
expenditure of those funds, it was clear that it was the tribes 
that were taking the lead role in looking at research and 
monitoring and developing an understanding of what is actually 
impacting these stocks and how to deal with that.
    The tribes have built a strong direction in management, but 
as Billy said, we do not want to lose in our management what is 
near and dear to us, and that is our culture. As we look at all 
of these species, we are always reminded that our culture is 
based on the utilization of species of many different types, 
for spiritual and economic ways of life. We have tried to lead 
the way for Federal and State agencies by developing strong 
research and management principles to stabilize fish and 
wildlife populations, to stabilize our culture.
    We have helped raise the standard of the management in the 
Northwest, and raise the standard for the future of our people. 
The treaties with the tribes created an obligation by the 
United States to assure the continuation of our culture and 
practices. Without specific actions to sustain these species in 
a way that allows us to utilize them, we are very concerned 
that our treaty rights will be eroded. Many species we used to 
utilize in our culture are now gone, and some are present in 
such low abundance that they cannot support tribal traditions.
    We are seeking reinforcement of self-determination; of 
government-to-government processes, co-management programs, 
where we have adequate decisionmaking; adequate funding to 
implement the programs that we have developed; and adequate 
environmental protection of the species that we are dependent 
upon.
    We also need stronger tribal enforcement to enable us the 
ability for better management of our individual areas; and 
especially continued research. In looking at inventorying 
species that we utilize, currently even though we are highly 
engaged in the management of fish and wildlife, we are not 
prepared or can we even deal with evaluating or inventorying 
all of the species that are important to us in sustaining our 
people.
    In summary, I think what I would like to say is that we are 
looking for an institutional process that brings authorization 
for statutory and regulatory programs that reinvigorate and 
support the tribes strongly. We appreciate the time that you 
have given us.
    Thank you.
    Senator Inouye. I thank you very much, Mr. Williams.
    Mr. Kelly.
    Mr. Kelly. I am here to answer any questions you may have, 
Senator.
    Senator Inouye. Mr. Johnstone.
    Mr. Johnstone. The same.
    Senator Inouye. Mr. Williams spoke of the high-tech 
equipment that is available now to you that would determine 
whether the habitat of the stock is healthy. Can you tell me 
whether in the last 50 years, stocks have increased or 
diminished in your area of concern?
    Mr. Williams. That is a difficult question to answer. The 
abundance of salmon has somewhat varied. If you look at what we 
have identified in the past as three of the more critical 
issues that we face, one is the fishery itself, looking coast-
wide at Alaska, Canada, and the lower 48 and how we manage 
those, and through the Pacific Salmon Treaty, we have 
rearranged those fisheries to allow better escapements, and I 
think we are seeing that now. Another issue is the ocean 
conditions, and the survival rate of the juveniles and the 
adults in the ocean. The third is predominantly land use or 
habitat issues.
    With the advent of the salmon treaty and the changes we 
have seen an increase of fisheries returning to our watersheds 
because of the lowered fisheries that are now generated by the 
two countries. We have seen some improvement in ocean 
conditions, which may be temporal, which has allowed some 
increases to our watershed. The land use issues, the 
environmental is slow, and it is one that is to us more 
significant in the ability to keep the populations at a 
sustainable rate for harvestable levels.
    So I think in answering that, we have seen some 
improvements from our management, but I think for the long 
term, we are not there yet. We still have a significant way to 
go in looking at the environmental problems that we are going 
to need to resolve.
    Senator Inouye. Does anyone want to add something?
    Mr. Johnstone. I think in the oceans, for us, the 
groundfish issues out in the ocean are an emerging fishery for 
us. The tools that we are developing are tools that are to be 
developed. The comment that I would have on behalf of the 
coastal tribes and the Quinault Indian Nation is we know 
certain things about the science, but we need the ability to be 
an active participant in this process. We are working with the 
Federal agencies to try to get on the same funding level of the 
funding streams as States, for instance. It is very difficult 
for tribes, some of the money that does exist that passes 
through is not easily accessible by the tribes. So we need to 
develop those tools. We are working hand in hand with the 
science, but we are really stretched. As Terry said earlier, we 
are basically taking our basic fish management dollars through 
United States v. Washington and making them stretch. There have 
not been any funds available to any great degree to really 
assist us in development of our fish management on the coast in 
these groundfish fisheries.
    Mr. Kelly. I am from the Nooksack Tribe. In the Nooksack 
basin, our recovery efforts are focused on chinook salmon. For 
the past 20 years, the two tribes within the basin have not 
harvested on those stocks for over 20 years. The positive side 
to that is that local governments have now stepped up because 
of VSA and are working with the local tribes to try to turn 
that around. The tribes have basically provided a leadership 
role in that they provide the glue that allows the local 
governments, the State agencies, as well as the Federal 
agencies to all sit down at the table to try to come up with 
solutions.
    So I think if you look at some of the hatchery stocks, they 
have sustained at harvestable levels. Some have not, so it 
really depends where you take your snapshot.
    Mr. Frank. Senator, we talk about our tribes in our areas, 
but we are talking about the tribes throughout the Nation. We 
have reservations. We are not going anywhere. We can't go 
anywhere. That is our management area. We have use of the 
custom fishing areas or hunting areas throughout our country. 
We cannot travel any further than that. Along the Pacific 
Ocean, as Ed was just saying, we have designated areas. We do 
not go to California. We do not go to Oregon. We stay in that 
designated area that our treaty has, the boundary of our treaty 
that goes out into the ocean, whereas other fishermen come up 
into our areas and take fish and leave--other non-Indian 
fisheries.
    So we have to manage our areas, and we do. That is what we 
are talking about. We need that capability of managing and 
working with other fishermen, as well as the States throughout 
our country.
    Senator Inouye. Of the fish harvested, about what 
percentage would be for personal consumption or tribal 
consumption, and what percent for commercial consumption?
    Mr. Williams. That is a tough one. I would need to go back. 
Each tribe is individual, of course, based on population and 
area, but by and large the commercial activities in the past 
have been the predominant of the catch. More recently, because 
of the low abundance of salmon available, it would be hard to 
estimate right now, but I would guess that the consumption side 
is a much higher percentage now because people are keeping what 
they can for food resources, rather than selling. Market 
conditions have had some effect on that as well.
    If I could, though, I wanted to mention one other thing--
your question about the new technologies. It occurred to me 
that another thing that might be important to answer in that 
is, with the tribes in the State of Washington, when it came to 
looking at the decline of the salmon, we initiated in the State 
the first watershed planning process that the State eventually 
adopted. We also initiated the development of watershed 
assessment methodology that not only the State has developed 
now, but the Federal Government through the U.S. Forest 
Services uses the same methodology.
    We also developed the fisheries models programs that 
established the abundance and management of our stocks, to the 
point that we were told that because of those models, that is 
what helped secure the United States-Canada treaty when that 
was signed in 1985, because we had the data in the way to 
document the impacts.
    Since then in all of our management, we have been on the 
cutting edge of developing the new technologies and instruments 
for management that are guiding us now in all of our 
management.
    Senator Inouye. Does the treaty say anything about who is 
responsible for research?
    Mr. Williams. No; not specifically.
    Senator Inouye. Do you have any assistance from the U.S. 
Fish and Wildlife Service or NOAA?
    Mr. Williams. In some cases, yes. We work pretty closely 
with National Marine Fisheries Service and NOAA on a lot of the 
research projects, and actually receive grants in some cases. 
Fish and Wildlife, we do some work with them and grants as 
well, but I would guess there is probably right now more from 
NOAA.
    Senator Inouye. Do you think you have enough research to 
back up your enterprise?
    Mr. Williams. Definitely not. That was what I was saying at 
the end of my talk. In terms of the research and inventories, 
there is still a lot of work to be done to be able to, again, 
identify what it takes to sustain a culture by utilizing these 
species. We just do not have that information.
    Senator Inouye. Who do you think has the responsibility of 
conducting such research?
    Mr. Williams. My direct response would be the United 
States. As we look at the United States and its many arms, we 
have National Marine Fisheries Service, NOAA, U.S. Fish and 
Wildlife Service, Army Corps, Agriculture, U.S. Forest Service. 
There are so many different aspects of the impacts that it 
takes a broad array of Federal agencies to support getting that 
information that is necessary.
    Senator Inouye. Your management of fishery resources is 
carried out under a government-to-government relationship based 
upon a treaty. Have there been violations of this treaty?
    Mr. Williams. We have certainly had violations I think even 
today. The violations are not as blatant as they were in the 
past. What we are finding now is a lot of it comes down to 
choices in allocations of species. To our tribes, our belief is 
that the treaties, as the Constitution states, the treaties are 
supreme law of the land. To us, it means that we are a first 
priority. In many cases with the Federal agencies, we are not 
the first priority. Many other areas have become, like in the 
State of Washington, with the agencies negotiating habitat 
conservation plans. Forestry and agriculture, and then 
development have become more of a priority than the tribes, 
which to us puts us at risk, and a risk that we should not have 
to bear.
    Senator Inouye. I am embarrassed to tell you this, but I 
have not seen those treaties. Do you have copies of those 
treaties so that the committee and staff can study these 
treaties?
    Mr. Williams. We do not have them with us in person, but we 
can certainly get those to you, the ones that are important to 
us.
    Senator Inouye. We would appreciate that.
    Mr. Williams. They are also on line. We can give you the 
addresses of how to access that.
    Senator Inouye. Because in order to better determine the 
role that the U.S. Government should assume or has promised to 
assume, we would like to see what the treaty says.
    Mr. Williams. Certainly, as all of us in Indian country 
have grown up and gone into the different types of professions 
that we all do, our parents and our ancestors have taught us to 
look at those treaties closely. We do understand them, and we 
hope that we can help articulate our perspective on those with 
you.
    Senator Inouye. Gentlemen, I thank you all very much. If we 
may, we would like to send questions to you of a more 
complicated nature once we read your treaties.
    Mr. Williams. We would be pleased to work with you.
    Senator Inouye. Thank you very much.
    Our next panel consists of the executive director of the 
Columbia River Inter-Tribal Fish Commission of Portland, Olney 
Patt, Jr.; chairman of the Upper Columbia River United Tribes, 
Spokane, WA, Warren Seyler.
    Welcome, Mr. Patt.

  STATEMENT OF OLNEY PATT, Jr., EXECUTIVE DIRECTOR, COLUMBIA 
               RIVER INTER-TRIBAL FISH COMMISSION

    Mr. Patt. Mr. Chairman, Mr. Vice Chairman, members of the 
committee, my name is Olney Patt, Jr. I am the executive 
director of the Columbia River Inter-Tribal Fish Commission, 
serving its members the Confederated Tribes of the Umatilla 
Indian Reservation, the Confederated Tribes of the Warm Springs 
Reservation of Oregon, the Confederated Tribes and Bands of the 
Yakama Nation, and the Nez Perce Tribe.
    I wish to thank the committee for the opportunity to 
address you today. In January of this year, our Commission had 
the pleasure of hosting the Tribal Fisheries Co-management 
Symposium in Portland, OR. Many of the tribal organizations 
here today attended that gathering, as well as staff from this 
committee. We are pleased that this hearing is in large part 
inspired by and modeled upon the symposium.
    I am here today to speak to you about our Commission's 
development, successes and challenges, and voice the member 
tribes' support for the development and introduction of 
legislation supporting Indian fish and wildlife management. The 
time has come.
    One creature, more than any other, exemplifies the pride 
and perseverance of our people. We call him Wy-Kan-Ush. He is 
our brother salmon, and this bond, this sacred relationship 
between land, water, salmon and ourselves has unified, 
stabilized and humbled the people, providing countless 
centuries of health, prosperity and well-being.
    Holding onto this relationship has been a struggle, no less 
profound than the American struggle for civil rights, human 
dignity and equality. While the treaties contain noble words, 
alone they were not sufficient to govern those driven by land 
acquisition, hoarding of water rights, and an overall dominion 
over nature.
    Since 1855 when our treaties were signed, the reserved 
rights therein have repeatedly been tested. The treaties were 
violated when a fish-wheel operator attempted to bar Indian 
fishermen from crossing his land, but the U.S. Supreme Court in 
1905 and 1919 ruled in two cases that the Yakama fishermen had 
the right to cross land to access their fishing sites. The 
treaties were violated when the State of Washington said the 
Indian fishermen would have to obtain State licenses to 
exercise their treaty rights, but in 1942 the U.S. Supreme 
Court ruled the State could not require fishermen to pay 
license fees. The treaties were violated when the State of 
Washington insisted the treaties reserve no rights not enjoyed 
by non-treaty fishermen, and under the instruction of the State 
Attorney General Slade Gorton in defiance of a Federal court 
order, issued discriminatory fishing regulations. But the U.S. 
Supreme Court in 1978 ruled the treaty language secured the 
tribes a right to harvest a share of each run that passes 
through tribal fishing areas.
    Though the courts ruled in the tribes' favor, States 
continued to find ways to circumvent these rulings, while the 
population of salmon, steelhead, lamprey and sturgeon and the 
region's other resident and migratory fish species continued to 
decline. Tribal fishermen decided to take matters into their 
own hands, and tribal, State and Federal Government leaders 
took notice. Tribal elected leaders whose duties included 
protecting treaty fishing rights, recognized that court rulings 
were not the sole answer to implementing the treaties. A 
broader intergovernmental approach was needed to deal with the 
myriad negative impacts on salmon runs that the governments 
could address through rules, regulations and other legal 
processes.
    There was a particular need to address mitigation for 
hydropower impacts on salmon and the general status of the runs 
which in the late 1970's were under study for endangered 
species status.
    In response to these problems and under the authority of 
the newly passed Indian Self-Determination Act, the tribes 
resolved to form the Columbia River Inter-Tribal Fish 
Commission, to ensure a unified voice in the overall management 
of the fisheries resource. The Commission is comprised of the 
Fish and Wildlife Committees established by each governing body 
and acts by consensus.
    In the years following the Commission's 1977 formation, the 
addition of biologists, hydrologists, attorneys, enforcement 
personnel and public information specialists have increased its 
collective capacity. These professionals help the Commission 
carryout its purpose by providing expert testimony, scientific 
analysis, and in general meaningful participation in the many 
governmental processes affecting treaty resources. The 
Commission and its staff have assisted in establishing on-
reservation fisheries programs that implement on-the-ground 
salmon restoration efforts in Columbia tributaries, including 
the Yakama, Umatilla, Clearwater, and Warm Springs Rivers.
    These successful recovery programs, combined with the 
Commission's core research and analysis, as well as the 
centralized enforcement effort, put the tribes in a key 
fisheries management role that has grown and evolved during the 
past quarter century. Though the Federal district court in 
Oregon still retains jurisdiction over United States. v. 
Oregon, the crucial court case still guiding the basin's treaty 
fisheries, the tribes through the Commission and tribal 
fisheries programs participate in every intergovernmental 
process on the river affecting water quality, fisheries 
management, habitat protection and mitigation.
    The Commission has initiated or participated in many local, 
national and international agreements to restore and recover 
salmon in the basin. They include the Pacific Salmon Treaty 
between the United States and Canada, ratified in 1985; the 
fish and wildlife provisions of the Regional Power Act of 1980, 
resulting in expenditures of more than $1 billion for salmon 
protection, mitigation and enhancement during the last 15 
years; the 1996 Federal memorandum of understanding among 
relevant Federal agencies to coordinate salmon recovery; the 
Columbia River Fish Management Plan of 1988 that allocated 
salmon harvests among the tribes and the States of Oregon, 
Washington and Idaho; and the Columbia Basin Law Enforcement 
Coordinating Committee, initiated in the early 1980's.
    Having a seat at the table has furnished the States and 
Federal Government with the tribal perspective on the salmon 
resource, but key decisions still need to be made on important 
factors responsible for salmon's decline in the basin. Though 
many hope that endangered species protection would assist the 
restoration effort, conflicting Federal mandates have limited 
the effectiveness of Endangered Species Act authority.
    In addition, while the tribes have successfully used 
hatcheries as a tool to rebuild salmon runs, the controversial 
State and Federal practice of mass marking and the failure of 
meaningful conservation restricts our efforts. Furthermore, 
while the tribes have developed a well-regulated fishery, the 
years without commercial harvest have eroded the market for 
tribal salmon, especially in light of the proliferation of 
farm-raised salmon.
    These and other challenges are what the Columbia basin's 
treaty fishing tribes are facing. But the tribes now have 
highly capable fisheries programs and an intergovernmental 
agency that can act under the authority of treaties, the 
supreme law of the land, to protect tribal sovereignty and 
resources. With this capacity and these challenges, I reiterate 
the time has come for a strengthened relationship with Congress 
through Indian fish and wildlife management legislation.
    On behalf of our member tribes, I thank you again for this 
opportunity. The Commission's individual tribal members will 
provide additional materials for the record. We look forward to 
your questions.
    [Prepared statement of Mr. Patt appears in appendix.]
    Senator Inouye. Mr. Seyler.

  STATEMENT OF WARREN SEYLER, CHAIRMAN, UPPER COLUMBIA UNITED 
                             TRIBES

    Mr. Seyler. Thank you, Senator, chairman, honorable 
committee members. Thank you for the opportunity to provide a 
snapshot of the fish and wildlife management activities of the 
Upper Columbia United Tribes.
    My name is Warren Seyler. I am tribal councilman for the 
Spokane Tribe of Indians, and chairman of the Upper Columbia 
United Tribes, this inter-tribal organization.
    Also present with me is Gary Aitken, chairman of the 
Kootenai Tribe of Indians, who is in the audience, and his vice 
chairman of the UCUT Tribes. Also joining me today in the 
audience is Greg Abrahamson, the vice chairman of the Spokane 
Tribe of Indians.
    The five member tribes of UCUT, as we are called, are the 
Coeur d'Alene Tribe of Idaho, the Colville Confederated Tribes, 
the Kalispel Tribe of Indians, the Kootenai Tribe of Idaho, and 
the Spokane Tribe of Indians.
    Today, my presentation and what I would like to talk about, 
differs slightly from some of the other testimony; 40 years 
ago, with the building of many of the dams, our salmon was cut 
off from the up-river tribes. So our issues tend to be a little 
different. We manage and we look at resident fisheries, other 
parts of wildlife. Although we do have endangered species in 
the up-rivers, our issues tend to be a little bit different.
    Historically, our tribes shared a vast area of aboriginal 
grounds, from the present-day western Montana to the Cascades 
of Washington, and from the Canadian border to Oregon. Today, 
we proudly retain management and input into many of the 
responsibilities over approximately 450 miles of waterways, 
which include approximately 40 interior lakes, 30 dams and 
reservoirs. All of this falls within the 14 million acres of 
our aboriginal territories of the combined tribes.
    Our current tribal reservations are used to store the water 
for the BPA's two major dams, Chief Joseph and Grand Coulee. 
Grand Coulee, which is the largest hydropower facility in the 
United States, as you will see in the written testimony of the 
Spokane Tribe, there are many unresolved and uncompensated 
issues concerning the impact of the Grand Coulee Dam.
    Today, those two reservoirs lie over the top of our 
reservations. This gives us many concerns regarding fish and 
wildlife and other issues. Every day as UCUT technical staff 
try to work within the region, they are asked to make many 
decisions. In these decisions, they include looking at the 
Endangered Species Act, the Northwest Power Act, the National 
Historic Preservation Act, the Clean Water Act. They deal with 
superfund sites, regional growth, and trying to develop a 
relationship with local utilities, counties and other 
governments, all within our diminishing financial resources. My 
staff definitely has its challenges. As shrinking funds 
continue, the need and demands on the staff are growing.
    Impacts of hydropower facilities have been devastating to 
the up-river fish and wildlife resources. Both have been in 
drastic decline for several decades. As ocean-going salmon were 
cut off 40 years ago by Grand Coulee, a complete change to our 
way of life happened. Other issues that we have to deal with 
because of this change is having some of the highest levels of 
diabetes in the country. We continue to strive to get these 
issues resolved so we can hopefully put fish back into our 
people's diets. Like I said, it is just not fish and wildlife, 
but it has impacted our elders and our culture.
    Today, UCUT is trying to take a leadership role, and it is 
a proactive role, I believe, not trying to remain isolated 
within our management activities. We are going out and using 
personal tribal dollars and finding dollars wherever we can 
squeeze them from to interact with our neighbors, the counties, 
the country governments, public and private utilities, and the 
multiple Federal agencies. We are trying to be proactive 
because we feel that if we can give these other entities the 
knowledge that we have, they will understand our programs and 
the things that we are trying to accomplish, and build those 
working relationships to overcome some of the problems that we 
have seen over the last multiple years.
    Our primary program funding is acquired through the 
Northwest Power Planning and Conservation Council, an 
interstate compact of the four northwestern States. 
Recommendations for program funding are proposed by the 
Columbia Basin Fish and Wildlife Authority, a body of 13 
tribes, 4 States, 2 Federal fish and wildlife agencies. Over 
the years, UCUT tribes have I believe taken the forefront in 
trying to resolve some of the regional issues and bringing all 
these entities together. Today, we still struggle to do that.
    Each of UCUT's five member tribes depends almost entirely 
on Federal funding to manage fish, wildlife and habitats. Rate-
payer funding from Bonneville Power Administration is an 
obligation to mitigate for the impacts of the hydropower 
systems, but additional congressional appropriations are needed 
to address the many endangered species, the Clean Water Act, 
and the National Historic Preservation Act, and other Federal 
statutory responsibilities.
    We implore this committee to be very assertive on our 
behalf to ensure the funds are there for us to continue our 
efforts in the fish and wildlife programs. We feel that the 
money is very well spent, just due to our innovative and 
striving needs that our technical staff do go through. As I 
said, we are taking a proactive and aggressive interaction to 
try to meet with public and county utilities.
    As for UCUT itself, let me take this opportunity to raise 
the committee's awareness to our organization's great need. 
Considering the geographic area that I have described, our 
brother organizations, the Northwest Indian Fisheries and the 
Columbia River Inter-Tribal Fisheries, which have endangered 
species, they tend to get a lot of coverage and a lot of voice. 
Unfortunately for the resident fisheries of the Upper Columbia 
United Tribes, although we do have endangered species in the 
Kootenai region, the burbot and the white sturgeon, we tend to 
be overlooked many times because we do not have the name 
``salmon'' attached to us.
    So I guess our need is funding, because we operate the five 
tribes organization, and split between four tribes and the 
office itself on a budget of about $300,000. That is divided 
between the four. Compared to the other organizations around 
the country, we have two staff members that cover the four 
States, so I just look for review on this.
    Before I conclude, I would like to draw the committee's 
attention to the written testimony of the Spokane Tribe. It 
focuses on what we have learned as a result of the BPA and the 
dealings that we have had with them for the last 15 years. We 
have seen the financial crisis that they have gone through. 
This is where many of our programs get funded. We have tried to 
analyze that and make recommendations, not just attacking, but 
making recommendations on how we feel this organization and the 
region can benefit from what we have seen and what we have 
learned, and trying to turn that around and make it a positive 
relationship so they can uphold the trust responsibility of the 
U.S. Government.
    Again, I appreciate your attention and interest in the fish 
and wildlife programs in the Northwest, and take a look at the 
challenges that we face as we try to improve the fish and 
wildlife management that is in our area.
    Thank you.
    [Prepared statement of Mr. Seyler appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Seyler.
    Mr. Patt, I gather from your testimony that since the 
formation of your Commission, matters have improved and fishing 
rights have been protected. Would that be an accurate 
statement?
    Mr. Patt. I believe it is an ongoing process. Whether or 
not it has improved, I would say that the status quo has been 
maintained.
    Senator Inouye. What sort of relationship do you have with 
the Upper Columbia tribes?
    Mr. Patt. We interface with the Upper Columbia tribes in 
the Columbia Basin Fish and Wildlife Authority, and in the 
Power Act funding for anadramous, resident and wildlife 
management in the Columbia Basin.
    Senator Inouye. You spoke of States trying to circumvent 
court decisions and such. Are they still doing that?
    Mr. Patt. I believe so, yes. It is an ongoing struggle to 
maintain those rights, as I stated. That started back with the 
fish-wheel operators in the Winans case, and to this day States 
attempt to require permits to for instance harvest lamprey at 
our usual and accustomed fishing sites at Willamette Falls on a 
tributary of the Columbia.
    Senator Inouye. Mr. Seyler, what percentage of tribal 
income would fishing consist of?
    Mr. Seyler. Specifically to the fish catch, it is very 
little. Most of the revenues come from the public coming to the 
many streams and lakes that we have filled. Between the UCUT 
tribes, we have four fish hatcheries. We plant throughout our 
area about 2.5 million fish into the lakes and Lake Roosevelt 
and the different areas. So tying the revenues to fish, it 
comes more from the public coming in and doing the fishery 
catching.
    Senator Inouye. Is that a major source of income for 
tribes?
    Mr. Seyler. It is growing. Lake Roosevelt, which is the 
largest body of water, it is about 160 miles of reservoir, 
there are about 1.5 million visitors to that one lake alone. So 
it is growing as far as fisheries, that the public is coming to 
that lake. The white sturgeon in other areas in the smaller 
streams up-river of the Upper Columbia is also growing. As the 
Coeur d'Alene Tribe and the Kootenai Tribe develop their 
hatcheries in those areas, it is also growing within those 
counties.
    Senator Inouye. So you would say that in all areas, fishing 
has expanded?
    Mr. Seyler. I believe up and to the last couple of years 
where funding has been stymied to keep the programs going, yes. 
Unfortunately, what we have seen sometimes is the funding to 
keep the hatcheries open in the different areas is questionable 
at this time. Our concern is that in order to keep those 
hatcheries open and to keep the fish going into the lakes and 
streams, it is almost each year we find the need to find ways 
to retain our biologists and our wildlife managers, because 
they fear for their jobs so they are constantly looking because 
of lack of consistent funding. So turnover in management 
abilities within our staff is pretty high, which in turn 
relates to the number and quality of hatcheries and fish that 
go into the lakes.
    Senator Inouye. Gentlemen, I thank you.
    Ms. Murkowski, do you have questions?
    Senator Murkowski. No questions, Mr. Chairman. Thank you.
    Senator Inouye. Thank you very much.
    Mr. Seyler. Thank you.
    Mr. Patt. Thank you.
    Senator Inouye. Our next panel consists of Natural 
Resources Department of the Confederated Salish-Kootenai Tribes 
of Flathead Reservation, Clayton Matt; the executive director 
of the Native American Fish and Wildlife Society of Colorado, 
Ira New Breast. Gentlemen, welcome.
    Mr. Matt.

STATEMENT OF CLAYTON MATT, EXECUTIVE DIRECTOR, TRIBAL COUNCIL, 
 CONFEDERATED SALISH AND KOOTENAI TRIBES OF THE FLATHEAD NATION

    Mr. Matt. Welcome and good morning. Thank you. Mr. 
Chairman, I am here on behalf of the Federated Salish and 
Kootenai Tribes. Our chairman, Fred Matt, had intended on being 
here. Thank you for allowing me to sit in his place this 
morning. As you are aware, there was a death in our community 
that he was informed of just prior to his getting on the plane 
yesterday. I learned of that upon arriving here, so thank you.
    I am honored to provide testimony on the status of the 
Confederated Salish and Kootenai Tribes' fish and wildlife 
programs. I will be brief, because we have also submitted 
written testimony for the record.
    With the help of Public Law 93-638 and other Federal 
support and resources, we have developed an extensive tribal 
infrastructure over the years. Our infrastructure not only 
includes the tribal Natural Resource Department, but a Forestry 
Department, Health Department, Lands Department, and other 
enterprises and committees including cultural resource 
committees. Today under the Natural Resource Department, we are 
responsible for all of the fish and wildlife management that 
was previously provided by the Bureau of Indian Affairs [BIA] 
and a majority of that formerly provided by the U.S. Fish and 
Wildlife Service.
    We work cooperatively with Federal and State agencies 
through contracts and grants and other agreements to ensure our 
resources will be protected for seven generations to come. We 
believe no tribe does a better job than the Salish and Kootenai 
Tribes.
    For the record, let me state a few examples, two of our 
better examples. The Confederated Salish and Kootenai Tribes 
was the first to designate a tribal wilderness area by setting 
aside 92,000 acres. In addition, within that area is a 
specially designated grizzly bear habitat, a program unique in 
this country, we believe. For 90 days every year, access to 
this area is limited even for tribal members. Confederated 
Salish and Kootenai Tribes has a long history of protecting the 
native bull trout and west slope cutthroat trout, especially 
from hazards resulting from the BIA's irrigation system located 
on the Flathead Reservation.
    We went to court to protect stream flows for the fish and 
other aquatic wildlife. As a result, the BIA implements in-
stream flows throughout the reservation. We believe that when 
we protect the grizzly bear and the bull trout, we protect them 
not just for the Federated Salish and Kootenai Tribes, but we 
protect them for all Americans.
    As a result of another landmark court case, we protect the 
quality of water in Flathead Lake, the largest natural 
freshwater lake west of the Mississippi. We protect it for the 
purposes of fish, wildlife and other recreation activities. The 
Salish and Kootenai Tribes Tribal-State Fishing and Hunting 
Agreement that resolved 12 year of litigation is viewed as a 
model in many ways for others in this Nation. Our late 
chairman, Mickey Pablo, and the former Governor, Mark Racicot, 
hailed this agreement as significant when they said:

    This agreement has shown that by working together, we can 
continue to enjoy this magnificent place we call the Flathead 
Reservation.

    In addition to fish and wildlife programs, the Natural 
Resource Department manages other programs that benefit the 
fish and wildlife. For example, we are proud to operate an air 
quality program to help ensure a class-one air designation and 
a water quality program that regulates water quality according 
to high tribal water quality standards. We also operate a water 
management program that measures tribal water resources 
throughout the reservation.
    Finally, for us the next logical step for our tribes in 
fish and wildlife program management is our proposal to manage 
the National Bison Range complex through a self-governance 
agreement with the U.S. Fish and Wildlife Service in the 
Department of the Interior. Since title IV was enacted in 1994 
that authorized tribes to enter into agreements for management 
of non-BIA programs, we have been actively pursuing the 
management of the Bison Range. The National Bison Range exceeds 
the criteria in the law that allows us to negotiate for its 
management. Criteria requires at least one historic cultural or 
geographic connection. We are connected to the National Bison 
Range by all three criteria.
    The National Bison Range is located in the heart of the 
reservation, on land originally reserved for our tribes by the 
Hell Gate Treaty. There are significant cultural sites on the 
Range, and the bison herd is descended from a herd originally 
raised by tribal members Charles Allard and Michael Pablo.
    We are beginning negotiations next week and our goal is to 
have an agreement signed and forwarded to this committee by 
July 2003. We urge your support.
    Thank you again for this opportunity. I would be happy to 
answer any questions after this, even now or subsequent to this 
hearing.
    [Prepared statement of Mr. Matt appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Matt.
    I now recognize Mr. New Breast.

    STATEMENT OF IRA NEW BREAST, EXECUTIVE DIRECTOR, NATIVE 
               AMERICAN FISH AND WILDLIFE SOCIETY

    Mr. New Breast. Good morning, Senator. Thank you for 
hearing us here today.
    My name is Ira New Breast, the executive director of the 
Native American Fish and Wildlife Society. I am also an 
enrolled member of the Blackfeet Tribe, neighbors to the Salish 
and Kootenai.
    I am here today to speak of and to support development of 
the Native American Fish and Wildlife Management Act. What we 
would like to present to the committee here today is just a 
little background on the Society. We are a 21-year-old 
organization that was established by tribal fisheries and 
wildlife biologists, law enforcement officers, leaders, 
planners and administrators and fish and wildlife technicians.
    Throughout that time, we have had the opportunity to hear 
many of the issues that surround Indian country in regards to 
fish and wildlife. During that time, through our intrinsic 
relationship with the various members of the tribes and tribal 
fish and wildlife programs throughout the country, we have been 
able to reflect on many of the issues that they face today and 
in the past. So we are here today to highlight some of those 
issues.
    Frequently, the tribes of course speak of the Federal trust 
responsibility. This is something that is a legal duty on the 
part of the United States to protect Indian land and resources, 
fulfill treaty, congressional agreement and executive order 
obligations, and carry out mandates of Federal and judicial law 
for the benefit of American Indians and Alaska Natives. This is 
no less than the international and domestic duties that the 
United States faces.
    Congress' highest trade exemplifies the good American 
conscience. Tribes rely on your honest willingness to champion 
and bond your actions to the edicts of this land, but also to 
rest your fortitude on the words of good intent. In this era of 
expanding international leadership and responsibilities for the 
country, what better way to build international confidence than 
by demonstrating excellence in the overall treatment of 
indigenous domestic sovereigns? In the face of mounting energy 
and resource use and to address solutions, express an example 
of the best commitment to the environment by enacting this 
legislation, which ensures quality standards and the integrity 
of management for present and future resource needs.
    Indian country's interest in the environment is embodied, 
inherent and evident. Our fellow Americans dearly share this 
interest in their own values.
    Protection of the trust resources is the cornerstone of the 
Indian trust responsibility. Typically, that is met through the 
Self-Determination Education Assistance Act of 1993. Tribes 
typically utilize that avenue in order to gain their funding 
and to raise their capacity of management programs for their 
fish and wildlife offices. Within the last 5 years, this 
funding has shrunk 20 percent. So we look to the development of 
this legislation to help offset and renew and reinvigorate 
tribal efforts to try and manage their own resources.
    Some of the compelling difficulties of the tribes as they 
struggle to develop and sustain their own wildlife programs 
have to do with the wide assortment of Federal conservation 
programs which largely fail to include tribes as eligible to 
participate. Two shining examples is the Federal aid program, 
commonly known as the Pittman-Robertson, Dingell-Johnson and 
Wallop-Breaux programs. The proceeds from those excise taxes 
are approximately $450 million annually to the States, 
territories, and District of Columbia. Native American 
populations, Indian land masses and Indian water bodies are 
used to inflate formula factors that decide allocations, and 
Native Americans pay the taxes. Taxation without representation 
plays a role here.
    Tribes understand the burden that States face in trying to 
manage their fish and wildlife resources, tribes understand 
this. Equity at the cost of the resource is not our strategy or 
intent. Rather, we call attention to the unfair injustice and 
await our trusted leaders resolve. In addition, as an example, 
the Endangered Species Act, section six, is absent of language 
affording tribes the means or capacity to manage their resident 
endangered species or species of concern. Over 30 ESA animal 
species and numerous plant species fall within the 
jurisdictions of the tribe. Current Federal agency resources 
fall short of filling the management gap need and more than 
often play an obstructive compliance role in economic 
development activities of poverty-stressed tribes. The proposed 
legislation would offset these shortfalls and ensure the 
integrity of the resource designed for protection and 
management.
    Another important issue that our members speak of again and 
again is the encroachment of States on the jurisdictions of 
tribes in all areas of government activity, which also includes 
fish and wildlife authority. The tribes look to you, the 
Congress, to preserve and fairly protect our interests. The 
factors leading to State infringement on tribal lands and 
interests are many. At the core is a misled understanding of 
the funding process and allocations, in addition to a long 
history of misunderstanding and subjugation of Indian culture 
and society, and a failure to embrace and acknowledge the 
special trust commitment made by this country's great 
forefathers and their contemporaries.
    It is erroneous for State leaders and State civil employees 
to assume that their attempt to have controlling authority over 
Indian lands will bring about solutions that will satisfy State 
citizenry, the State taxpayers. Any new burden of authority for 
the States on Indian lands will be paid for by the State 
residents in taxes. States easily overlook the special 
relationship Native Americans have with the law of the land. 
Congress, your constituents, know that their State governments 
are leading them down this one-way endless financial road of 
commitment.
    It is in the American people's interest to protect Native 
American and Alaska Native interests from States' unfair 
encroachment. One demonstrated method is to enact the Native 
American Fish and Wildlife Management Act and ensure tribes' 
capacity to manage the resource for the benefit of the 
environment and all American people.
    Federal Indian lands reservations comprise about 55 million 
or 56 million acres, a number in-between there. Alaska Native 
lands comprise another 45 million acres. Ceded usual and 
accustomed areas comprise another 38 million lands in the 
United States. That amounts to the fifth largest State in the 
United States.
    Indian tribes function as distinct and unique governmental, 
political, social and cultural entities operating on a 
government-to-government basis nationally and internationally. 
The language describing a treaty, congressional legislation, 
agreements, executive orders, Supreme Court statutes is unique 
to each tribe and molds the governing nature of each individual 
tribe's distinctive system of governance and authority. The 
contemporary culture of each tribe is autonomous today as it 
was in the past, distinctive and independent.
    Indian reservation lands are diverse in habitat and 
represent many of the fish and wildlife species that naturally 
occur in the United States. Many species listed within the 
Endangered Species Act and many species of special concern are 
present throughout Indian country. The various habitats that 
support the game populations are extensive and persistent in a 
pristine state throughout most of Indian country.
    Stressed economies at poverty levels have had the effect of 
safeguarding the habitat against development and destruction. 
As a result, an extensive fauna presence can be found 
throughout Indian lands.
    One role of the proposed legislation is to further 
encourage the establishment and continuation of fish and 
wildlife codes and programs. Of the 557 federally recognized 
tribes, from the whole spectrum there are tribes that do not 
have fish and wildlife programs, to tribes such as the Salish 
and Kootenai that have outstanding programs. Under the act, 
this measure of legislation would look to fill that gap in 
equity among Indian country, of needy tribes that dearly want 
and wish to emplace programs of fish and wildlife management 
for the benefit of their people in the future, but are unable 
to for a host of economic and political and obviously funding 
reasons. We look to this measure to try and shore up that end 
of the sector of Indian country in regards to fish and 
wildlife.
    Among the challenges tribes face, they must contend with 
two common misconceptions. One is that tribes are federally 
funded throughout their needs, and the other is that Indian 
casinos serve every tribe and their needs. This is not true. 
Tribal fish and wildlife management needs are straightforward. 
Fundamentally, they are a combination of capable personnel 
supported by sufficient resource capital, driven by a clear 
objective and purpose that encourages the affected public and 
governing body to embrace and support the best interests of all 
current and future aspects of the fish and wildlife resource.
    The tribes' needs are many, from training to education to 
marketing services, internally and externally. There are 
miscellaneous needs, simple gasoline and maintenance, bullet-
proof vests; 37 tribes border international borders, but yet 
are not looked upon to be incorporated within the homeland 
security system. Many of our areas have game wardens out there 
in these areas, and they are the only line of defense, yet they 
are untrained and they are unlooked for to support and 
participate equitably in the homeland defense schemes that are 
being proposed.
    A comprehensive fish and wildlife data inventory and survey 
of biodiversity and human resources in Indian country is a 
crucial need to assess and measure achievements in target areas 
for maximum effect. In addition, the Inter-Tribal Bison Coop 
has asked me to mention programs that facilitate Indian bison 
conservation and management is dearly needed. Tribes see 
buffalo as a fundamental wild resource basic to contemporary 
existence and among the cumulative fishery and wildlife needs 
of tribes.
    The Native American Fish and Wildlife Management Act is a 
long-awaited measure that will conscript funding and impart 
legal processes to tribes as they realize development and 
sustainable fish and wildlife conservation for the benefit of 
the resource and the benefit of Indian country and the United 
States.
    Tribes rely on the strength of Congress to exercise 
legislative authority to ensure natural resource interests and 
to protect tribes from unjust exterior pressures and eliminate 
disparities. Where do we go if you cannot prevail for us? Much 
of our hope and ways of life to enjoy our natural destinies 
dutifully rest with this body. Thank you, Senator.
    [Prepared statement of Mr. New Breast appears in appendix.]
    Senator Inouye. Thank you very much, Mr. New Breast, 
because I think your testimony will be very helpful if the 
committee decides to proceed with the bill that we failed to 
pass the last time. We are now looking at a successor bill, and 
the testimony that has been presented here will be very 
helpful.
    As a matter of curiosity, Mr. Matt, are you in the grizzly 
and bison business?
    Mr. Matt. We are trying to get into the bison business, 
yes.
    Senator Inouye. How many grizzlies are there in your tribal 
area?
    Mr. Matt. It changes from year to year. They have a wide 
range of area, and could range anywhere from 1 dozen to 15 or 
20 in any given moment.
    Senator Inouye. Are they on the endangered list?
    Mr. Matt. They are listed, yes.
    Senator Inouye. And what of the bison herd?
    Mr. Matt. Our bison herd--well, the bison herd is healthy. 
The bison herd that is on the Flathead, of course, is on the 
National Bison Range currently managed by the U.S. Fish and 
Wildlife Service. As I mentioned at the end of my remarks, we 
are just beginning to enter into negotiations with the Fish and 
Wildlife Service hopefully to manage the Bison Range in the 
near future.
    Senator Inouye. You manage that, but you also market that 
do you not?
    Mr. Matt. Excuse me, no, we do not manage the National 
Bison Range, and no, we do not market bison. We do not have a 
bison herd at Flathead. We would like to be able to manage the 
National Bison Range and are very excited about the opportunity 
to negotiate with the Fish and Wildlife Service to do so. We 
are beginning negotiations next weekend and hope to have a 
settlement with them very soon.
    Senator Inouye. What is the potential outcome of your 
negotiations?
    Mr. Matt. The potential is great. I think it we are always 
very optimistic about these opportunities. We tried to do this 
a few years ago. It fell through. I think a number of people 
have mentioned a lot of the difficulties that many tribes have 
in trying to deal with these issues, these organizations. I 
think Ira mentioned the political misconceptions. Certainly, 
there are political misconceptions about tribal management 
issues at Flathead, and those tend to get overwhelming for 
people at times. But we have a new year, a new opportunity for 
us. We are taking a fresh approach, and we have some people 
that we are negotiating with that are very interested in seeing 
this succeed, and we are interested in seeing this succeed. 
Certainly, we have the capability of seeing this through, so we 
would like to be able to do that.
    Senator Inouye. Have you experienced some of the problems 
that Mr. New Breast cited?
    Mr. Matt. Probably. We do not border Canada for example, 
but in terms of when he was mentioning bullet-proof vests, I 
think while we should not need them, I think we see those kinds 
of issues as issues we deal with both on-reservation and 
regionally throughout our aboriginal territory because there is 
always conflict in our area, simply because of the 
misconceptions and the misperceptions and the historical 
relationships between the community and the tribal people and 
tribal governments, cities, counties and the State. So some of 
that does exist today, but we are working very hard to try to 
overcome that, and I think probably one of the best ways we can 
overcome that is to continue to get your support, this 
committee's support, congressional support for developing many 
of the programs that we talked about. If we can continue to do 
that, lay a solid foundation for the future, we can have 
something to turn over to our kids and our grandkids.
    Senator Inouye. Senator Murkowski.
    Senator Murkowski. Mr. New Breast, your comment about 
homeland security, when I was up in Alaska this week, I heard 
the same comment or a similar comment about the tribes not 
being involved with the homeland security efforts. I would ask 
you if you have a specific message that we could deliver to 
Secretary Ridge?
    Mr. New Breast. Typically, what I understand is being 
proposed is that the homeland security dollars will go out to 
the FEMA offices within the State. So it is another case where 
tribes are mandated to go through the State in order to receive 
their Federal funding, which is not a scenario that tribes like 
to be entered into. From State to State, they experience 
different results. Some States may have very complicated 
application processes that is difficult for a tribe to meet. 
Other States are working very closely with their tribes to 
facilitate and help them in their needs as they approach the 
State for those type of funds.
    Senator Inouye. Thank you very much, gentlemen.
    Mr. New Breast. Thank you, Senator.
    Mr. Matt. Thank you.
    Senator Inouye. Before we proceed, I have a statement for 
the record submitted by Senator Maria Cantwell. Senator 
Cantwell regrets that she cannot be with us today. Without 
objection, the statement will be made part of the record.
    [Referenced document appears in appendix.]
    Senator Inouye. Our next panel consists of the following: 
Policy Analyst, Great Lakes Fish and Wildlife Commission, James 
E. Zorn; the executive director of the 1854 Authority of 
Duluth, Minnesota, Millard J. ``Sonny'' Myers; and Jon Cooley, 
interim executive director, Southwest Tribal Fisheries 
Commission.
    Welcome, gentlemen.
    Mr. Zorn, may we begin with you.

STATEMENT OF JAMES E. ZORN, POLICY ANALYST, GREAT LAKES INDIAN 
                  FISH AND WILDLIFE COMMISSION

    Mr. Zorn. Good morning, Mr. Chairman, members of the 
committee. On behalf of our 11-member Ojibwe Tribes in the Lake 
Superior Region, northern Wisconsin, the U.P. of Michigan, and 
northeastern part of Minnesota, thank you for allowing us to be 
here today.
    On a personal note, if I may wish my daughter Rachel a 
happy 15th birthday today. I would like to do that on the 
record. I will see you tonight, Rachel.
    We have submitted rather extensive written testimony to 
help provide part of the record that the committee might use in 
helping to talk to the other members of Congress about tribal 
natural resource programs. So we will let that stand.
    Today, what we would like to do is just highlight a few of 
the themes that we think you will hear today, and that are 
illustrated by the types of programs that we and our member 
tribes do with regard to their treaty rights, which really as 
you heard from other witnesses, are intended to sustain the 
rhythm of nature, the rhythm of a people, of a culture; to 
sustain a people through the exercise of sovereign authority 
and prerogatives in the area of natural resource harvest 
regulation and management.
    After all, for our member tribes, as we try to show in our 
written testimony, ecological sustainability equals Ojibwe 
sustainability. The ties to nature are just that close. 
Virtually all of the resources in the ceded territory are used 
in one part of Ojibwe life, in one way or another, whether it 
is for a naming ceremony; whether it is for medicine; whether 
it is to eat; perhaps a little economic gain; certainly in 
religion and culture.
    So one of the themes that we would like to highlight today 
is that there is just more than fish and wildlife involved. The 
hearing today is on the status of fish and wildlife programs. 
At least in our area and for our member tribes, wild plants 
also are very important. Let's look at wild rice for example. 
An important part of the Ojibwe migration story as you move 
from east to west is that ``you shall continue to move until 
you find the food that grows on the water.'' That is wild rice 
in our region for our member tribes. It is important as a food 
source, important as a cultural resource. In many ways, just as 
you hear reference to the salmon people, the Ojibwe in many 
respects are wild rice people.
    Wild rice is ecologically important. Many species, in 
particular the migratory water fowl that fly from Canada down 
to the Gulf of Mexico, rely on wild rice for their diet. So 
wild rice illustrates that when we talk about tribal programs, 
it is more than fish and wildlife. It is a wide range of plants 
for medicinal purposes, religious purpose, food sources and so 
on.
    The other thing about wild rice that is intriguing is that 
it illustrates traditional regulatory systems within at least 
the Ojibwe culture, and we are confident that is the case 
throughout the country. Wild rice was regulated through the 
years within Ojibwe society by rice chiefs. They were the ones 
who would say to the people:

    The rice is ripe, go ahead, you may harvest it today; no, 
not today; it is not ripe yet; let's wait a couple of days.

    Interestingly enough, that system has been codified now as 
part of a treaty rights litigation in northern Wisconsin. The 
lakes that are jointly regulated by the State of Wisconsin and 
the Ojibwe Tribes in northern Wisconsin will not open until 
there is agreement between the rice chiefs and the State 
authorities that it is time to open those lakes. So there has 
been influence there in that system.
    The other interesting part about wild rice is that the 
State of Wisconsin looked to the tribes to define what the 
State harvest regulations should be, particularly the harvest 
methods. The State was discovering that the non-Indian 
harvesters were using any method to knock down the rice into 
the canoes and they were wrecking the plants, and you were not 
getting the harvest and you were not re-seeding. So the State 
literally adopted into State statutes the tribal harvest method 
and the traditional regulations that the tribes had in place 
for generations.
    This helps illustrate, Senator, you asked the question 
before about scientific study and scientific knowledge. Our 
member tribes take great pride in the traditional ecological 
knowledge of the people, of the elders, that has been passed 
down from generation to generation; that knowledge that has 
listened to the rhythm of nature; the stories that talk about 
when it is okay to harvest; how if you harvest in the proper 
way, that resource will be there year after year, generation 
after generation, to sustain the people and to sustain the 
other parts of the ecosystem. So wild plants are important to 
the tribes in the Great Lakes region.
    The other aspect we would like to highlight would be the 
relationship between human health and traditional food diets. 
Obesity, diabetes, I think we have all heard about these, the 
health problems in Indian country. There are a number of 
studies that have been undertaken and that are underway at 
medical colleges and elsewhere in the United States and Canada 
that demonstrate the relationship between improved health and 
greater reliance on more traditional foods such as wild rice, 
fish and so on.
    One of the problems that we run into, and we want to 
highlight one of the aspects of our program for you today, is 
that the fish have become contaminated, for example, with 
mercury and other contaminants. Rather than issuing a fish 
consumption advisory that says ``you should not eat fish 
because it is not good for you,'' we want to try and help 
members find the fish that have low concentrations of 
contaminants or no concentration of contaminants, so that they 
know what they can eat in what amount. Because as you know, the 
consumption patterns of tribal members are different than the 
non-Indian angler.
    When we look at our fish consumption patterns for our 
tribal members, they peak in the spring when the fish are 
running, and they peak again in the fall as fish are running. 
The consumption advisories issued by States, for example, do 
not take into account that consumption pattern. They are based 
upon perhaps somebody like me and my family, a few fish a week 
you might catch; you might eat a meal or two here or there, but 
it is not as much a part of my diet as it would be for tribal 
members.
    What we have done, and we have used our BIA funds to 
leverage other funds from Health and Human Services and EPA, we 
have helped produce these types of color-coded maps. We go 
sample the fish; we find out the mercury content in those 
filets of fish; we classify the lakes, and if Secretary Ridge 
would excuse us, we came up with the color-coding first, orange 
for the hot lakes and so on. We categorize it lakes for women 
of child-bearing years and children, and then for us older guys 
and women who are not going to have kids anymore. The 
concentrations matter differently for those segments of the 
population.
    We give these maps to tribal members to help them make 
informed decisions about how they can keep fish as part of a 
healthy diet, rather than to say the fish are so polluted, do 
not eat them. We are working hard to try and keep air pollution 
from emitting mercury into the air and then into the ecosystem. 
We cannot do it all, but we can help people find healthy fish.
    So this is an aspect of our work that we could not do 
without BIA dollars. It helps illustrate that we leverage other 
funding from other agencies to do that.
    Finally, a couple of points, Senator Inouye, and this 
relates a lot to your experiences in Wisconsin back in the late 
1980's, the social context and the partnership context. Much is 
often made about how the tribal rights and the tribes may not 
be compatible with State sovereignty and States' rights. I 
think as you saw in the preparation of the report, Casting 
Light Upon the Waters, in Wisconsin in the late 1980's, the 
State, the Federal Government and the tribes got together and 
said this just is not so; we can do it together.
    In building upon that effort, most recently the United 
States Fish and Wildlife Service did a strategic plan for its 
fisheries program and brought together a series of partners 
under the Sport Fishing and Boating Partnership Council, and 
issued a report, America's Aquatic Resources Are In Crisis. One 
aspect of the report says, we cannot fix it without tribes; we 
need them; they are important partners.
    So just as a reminder, it does work; tribal natural 
resource management is not incompatible with State sovereignty, 
as Justice O'Connor said in the Minnesota v. Mille Lacs case in 
1999. But as a reminder this last spring, we did start seeing 
nails at boat landings, put out there so that when tribal 
fishers launched their boats, they would get flat tires. We 
always have to be mindful that as tribes try to do the right 
thing, there are those out there who may want to stand in their 
way for reasons not related to the quality or legitimacy of the 
tribal programs.
    Thank you for the opportunity to be here today, and we are 
happy to work with the committee and Congress in any way we can 
to help strengthen congressional support for these types of 
programs.
    [Prepared statement of Mr. Zorn appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Zorn.
    May I recognize Mr. Myers.

 STATEMENT OF MILLARD J. ``SONNY'' MYERS, EXECUTIVE DIRECTOR, 
                         1854 AUTHORITY

    Mr. Myers. Good morning, Mr. Chairman, members of the 
committee. My name is Sonny Myers. I am the executive director 
of the 1854 Authority. We are an inter-tribal natural resource 
management organization which implements the off-reservation or 
ceded territory hunting, fishing and gathering rights of the 
Bois Forte and Grand Portage Bands of the Lake Superior 
Chippewa. This is in the territory ceded in the Treaty of 1854.
    It is about 5 million acres of resource-rich land in 
northeastern Minnesota. It is also an area, that as my 
colleague here was saying, we are practically neighbors, rich 
in fish, wild game and also a lot of plants that have in the 
past and continues today to support a subsistence, although 
somewhat supplemental, but nonetheless subsistence lifestyle. 
It is also an area that contains significant history and 
significant links to the history and culture of the Chippewa in 
our neck of the woods. Basically, it is our home.
    So I want to thank you for the opportunity to be here this 
morning, and take just a couple of moments to highlight a 
couple of the successes, and also provide insight to some of 
the challenges. We also have provided written testimony that 
goes into a little bit more detail.
    Since we are dealing exclusively with non-reservation 
lands, cooperation with non-tribal agencies is a must. This is 
one of our ongoing struggles, but also avenues of success. So 
cooperation with the State, Federal and other agencies and 
protecting, preserving and enhancing these resources in 
northeastern Minnesota has been something we are continually 
active in.
    One thing I would like to highlight, and you will hear over 
and over, is really recognition of the tribes' rightful place 
among the stakeholders in managing these resources on non-
reservation lands. It is one of our challenges. Hopefully, it 
will be something that may come out of a potential Indian Fish 
and Wildlife Act.
    But successes have been made. A prime example is we are in 
the second year of a multi-year moose study where we have 
collared 60 moose. This is actually a highly valued food source 
of the Bands, as well as other folks in Minnesota. We will be 
tracking these animals in an effort to gain a better 
understanding of their biology, specifically their mortality. 
This project is a cooperation between the Minnesota Department 
of Natural Resources, the U.S. Geological Survey, and the Fond 
du Lac Band who is also a signatory to the 1854 Treaty. The 
results of this project will definitely benefit all, both 
Indian and non-Indian alike, so we think it is a prime example 
of the cooperation that is going on up in our neck of the 
woods.
    Another shining example has been the BIA Circle of Flight 
Program, which provides for wetland and waterfall enhancement 
projects to tribes in the Great Lakes region. I would like to 
note that with these funds we have been able to develop 
multiple partnerships. The tribes have been able to take about 
$6.7 million of these funds over the history of this program 
and leverage an additional $18 million with other partnering 
agencies. These partners are not only governmental agencies, 
but also private organizations such as Ducks Unlimited. In one 
of our projects, we had an investor who was a private 
individual who invested in a project in memory of her husband's 
love for wildlife. So there are multiple, multiple partnerships 
that have come out of this Circle of Flight Program.
    Unfortunately, this funding has found its way to the 
cutting block. It was slated for cutting in 2003, but was 
successfully restored after some pretty aggressive action by 
the tribes. It is again slated for elimination in 2004, and I 
would like to take this opportunity to urge Congress to make 
this program permanent. It is a real great beneficial program 
where the dollars actually do hit the water, and not a lot of 
bureaucratic money is spent in that process, or I should say 
administrative costs are minimal. If I can provide any further 
information about this program, I would be more than happy to 
do so.
    And finally, our program is funded through the Bureau of 
Indian Affairs by a 638 contract, and obviously we could always 
use more to do more. But we have more of an immediate concern 
which is we have been in existence about 15 years and we are 
slowly but surely feeling the affects of funding that has 
remained relatively stable, which we are happy with, we are not 
complaining about that, and we have always tried to be content 
with that, but at the same time expenses have increased. We 
have had to deal with these accordingly. Because we are so 
small, we have nine full-time employees, and three of them are 
administrative, two biological and four conservation officers. 
A loss of even one position can have a significant impact.
    For example, when my predecessor testified before this 
committee 10 years ago, we employed five conservation officers 
to patrol that five million acres. There is a lot of land out 
there. Today we have four, and with the recent significant 
increases the last couple of years, which are no news to 
everybody, but insurance, you name it, it has gone up. We may 
soon be faced with further cutbacks.
    So I would like to close by stating our appreciation to 
Congress for consistently earmarking funds for the 1854 
Authority in the Interior Appropriations. These are the 
lifeblood of the Authority. We strongly believe great things 
are being accomplished up in the Great Lakes region, and with 
continued funding and support of Congress we can continue to 
move in that positive direction to hopefully establish the 
tribes as legitimate stakeholders in the management of 
resources in the 1854 Treaty area, as well as other treaty 
areas.
    Thank you for your time.
    [Prepared statement of Mr. Myers appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Myers.
    Mr. Cooley.

STATEMENT OF JON COOLEY, INTERIM EXECUTIVE DIRECTOR, SOUTHWEST 
                  TRIBAL FISHERIES COMMISSION

    Mr. Cooley. Good morning, Mr. Chairman, members of the 
committee. My name is Jon Cooley and I am the executive 
director of the Southwest Tribal Fisheries Commission, which 
represents tribes located in New Mexico, Arizona, Utah, 
Colorado, Nevada, and Southern California.
    I appreciate the opportunity to present remarks on tribal 
fish and wildlife issues affecting our member tribes, and I 
respectfully request that my oral remarks and my written 
testimony be entered into the record.
    Senator Inouye. I can assure all witnesses that your 
prepared statements are all part of the record.
    Mr. Cooley. Thank you.
    Indian reservations in the Southwest contain a unique 
diversity of landscapes and accompanying resource management 
challenges requiring tribes in the region to exercise 
stewardship over large expanses of lands, fish, wildlife and 
other resources. These tribal lands embrace the full spectrum 
of ecosystems and habitats the present opportunities in terms 
of sustaining tribal communities and developing compatible 
resource and recreation-based economies, while also conveying 
tremendous responsibilities and challenges in providing for the 
sustainable management and conservation of these diverse 
resources.
    Our member tribes depend in part on fish and wildlife 
resources to sustain their cultures, economies and associated 
resource conservation programs. Our tribes desire to pursue 
sustainable economic development opportunities that support 
tribal economies and conservation programs. Southwest tribal 
lands have tremendous potential for economic development, yet 
our tribes continue to face significant unmet needs and 
struggle with building and funding fish and wildlife management 
capacity.
    It is particularly frustrating to tribes in the area that 
while the Department of the Interior has spent hundreds of 
millions of dollars in recent years on improving Indian trust, 
very little of that money has flowed directly into tribal 
resource management programs or related economic development 
initiatives. This is a sad irony, given that tribal lands and 
resources comprise over 90 percent of the Indian trust corpus.
    Despite the Department of the Interior's lack of emphasis 
on these issues, many of our member tribes have developed and 
rely upon economies that are natural resource and recreation-
based, with tribal recreational programs evolving into 
important components of their social fabric and economic 
viability.
    Equally important, tribal recreation economies provide 
valuable revenue that generates local employment and enable 
some tribes to partially fund conservation programs. By 
employing their own management and regulatory structures, our 
tribes have demonstrated the ability to build sound management 
programs that have become important contributors to the 
development of regional economies and resource conservation 
efforts.
    For instance, our tribes have developed successful world-
class big-game hunting programs and quality recreational 
fisheries. This generates public recreation and economic 
benefits extending well beyond tribal boundaries. On the 
conservation front, our tribes also play instrumental roles in 
successful native fish recovery and habitat restoration 
programs in the region.
    Despite these advances, the majority of tribal fish and 
wildlife programs continue to struggle with developing the 
biological and management capacities needed to adequately 
sustain these diverse resources. Moreover in recent years, the 
U.S. Fish and Wildlife Service policies have shifted away from 
tribal assistance programs in favor of the Endangered Species 
Act and related preservation priorities. This has gradually 
deteriorated tribal recreational fishing programs and the 
national fish hatchery facilities upon which they depend. For 
decades, the national fish hatcheries system has sustained both 
cold and warm water fisheries on tribal lands and have 
productively served tribes in developing their respective 
recreational fishing enterprises and conservation programs.
    This cornerstone hatchery infrastructure includes 
facilities built on tribal lands like the Mescalero National 
Fish Hatchery located on the Mescalero Apache Reservation in 
New Mexico, and the Alchesay-Williams Creek National Fish 
Hatchery complex located on the Fort Apache Indian Reservation 
in Arizona.
    Prior to its November 2000 closure, the Mescalero National 
Fish Hatchery supported the recreational fishing programs of 17 
tribes in New Mexico, Arizona, and Southern Colorado. The 
closing has had a devastating impact on the affected tribal 
fisheries programs. Moreover, we understand that the future 
operation of the Alchesay-Williams Creek complex, which 
presently provides catchable trout to 23 tribes in Arizona, New 
Mexico, and Southern Colorado, is in similar jeopardy of 
perhaps being closed.
    The lack of emphasis by the U.S. Fish and Wildlife Service 
toward these facilities on tribal lands has fostered a negative 
relationship between the agency and many of our tribes. In 
fact, the closure of the Mescalero facility was a key factor in 
the establishment of our Commission.
    Since its inception, the Commission has provided a forum 
for tribes to meet and discuss issues with both the U.S. Fish 
and Wildlife Service and the BIA. This has resulted in improved 
relations and mutual understanding with these Federal agencies.
    In summary, our tribes organized and developed the 
Commission to confront the numerous fisheries challenges and to 
further develop initiatives that promote sustainable economic 
development and enhanced conservation capacity-building on 
tribal lands. Our immediate efforts include supporting the 
Mescalero Apache Tribe as it moves forward in securing 
renovation and operating funds needed to reopen its valuable 
cold water hatchery facility, and supporting Arizona's White 
Mountain Apache Tribe as it pursues renovation funding for the 
Alchesay-Williams Creek complex. Furthermore, the Commission 
supports member tribes in developing reliable funding 
mechanisms for fish and wildlife management programs which are 
fundamental to tribal sovereignty and self-determination.
    To balance economic and conservation objectives, the 
Commission recognizes the value of building meaningful, well-
coordinated partnerships with Federal, tribal, State, and local 
interests.
    Mr. Chairman, this concludes my remarks. I thank you again 
for the opportunity to present this testimony, and on behalf of 
our member tribes, I invite the committee to the Southwest to 
enjoy some of the best recreational fishing in the country.
    Thank you.
    [Prepared statement of Mr. Cooley appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Cooley.
    Mr. Zorn, about 13 years ago I went to northern Wisconsin 
because I was told that that area was on the verge of bloody 
violence over the exercise of treaty fishing rights. There were 
people with shotguns shooting at tribal fishermen. I thought 
that all of this was resolved, but I gather that it still goes 
on.
    Mr. Zorn. It still does go on, Senator, perhaps more 
subtly. I think the lesson has been learned about the civil 
disturbances at the boat landings and the presence of a lot of 
people there, but there are still ways that people who do not 
like the tribes and their treaty rights will express 
themselves, like through the nail at the boat landingss or 
through some verbal harassment around the lake. It is more 
isolated. This is more in East Central Minnesota where the 
rights were just recently affirmed. So the goal now is to nip 
that in the bud, and hopefully it will not happen like it did 
in Wisconsin. It is just a reminder that tribes need Congress 
to stand by them in recognition of their rights.
    Senator Inouye. On the Circle of Flight, Mr. Myers, how 
much was cut off?
    Mr. Myers. For 2003? I am not sure of the exact numbers. I 
believe we got $900,000 for 2003, but it was slated to be 
totally cut off for 2003, and then it was reinstated by 
Congress. A lot of tribes came and talked about the program, 
the real benefits of the program. It is on the chopping block 
again, to be eliminated completely.
    Senator Inouye. $900,000? Well, we will do our best to put 
it in there. I do not think that will bankrupt the country.
    Mr. Myers. I would just would like to add that it is a 
really good program. I can attest from working on the projects. 
Most of those dollars actually hit the water or the wetland or 
the wildlife or the waterfowl. There is very little 
administrative moneys used for that. The other benefit is, 
especially for those of us, well, I should say for all tribes, 
it allows us to be players in the stakeholder game out there in 
the natural resource management game. So it is a great program.
    Senator Inouye. I am very interested in your national 
hatcheries program. Will you sit with members of my staff to 
give us a better understanding of the hatcheries program? What 
is the amount of Federal funds that was involved in that?
    Mr. Cooley. In the case of the Mescalero Hatchery in New 
Mexico, it was a U.S. Fish and Wildlife Service hatchery, and I 
believe the operating funds that they relied upon annually to 
run that facility was right around $300,000 or $350,000 a year. 
That includes staff and operating funds. In the case of 
Alchesay-Williams Creek, keep in mind in the written testimony 
you will see that it consists of a complex of two hatcheries, 
and those combined facilities I believe receive about $800,000 
a year to run the entire complex of the two hatchery 
facilities.
    Senator Inouye. Did the Inks Dam, Williams Creek, Willow 
Beach, did they also receive Federal funds?
    Mr. Cooley. Right. Inks Dam and all of those hatcheries 
that you have listed are all within the Fish and Wildlife 
Service National Fish Hatchery system.
    Senator Inouye. They were all cut out?
    Mr. Cooley. No; Inks Dam is still running, although there 
has been discussion about its future as far as producing warm 
water species. Willow Beach is located in Arizona. It is also a 
national fish hatchery within the National Fish Hatchery 
system. Its issues are more in terms of converting what 
previously had been recreational fish production, namely 
rainbow trout in particular. They are moving more and more 
through time into native fish production, and thereby cutting 
off some of the sport fish supply.
    Senator Inouye. To revive the Mescalero and the Alchesay-
Williams would be about $900,000?
    Mr. Cooley. Combined?
    Senator Inouye. Yes.
    Mr. Cooley. A little bit more, I think. Alchesay-Williams 
Creek is still an open facility. Their problems is that it is a 
deteriorating facility. I think it is 80 years old, probably, 
and they do need some renovation money to keep it. Plus, the 
drought in Arizona has been affecting its production as well. 
In the case of Mescalero, it is a matter of reopening the 
facility in its entirety.
    Senator Inouye. Mr. Myers, will you sit with the staff to 
discuss the Circle of Flight, and Mr. Cooley, the fisheries?
    Mr. Cooley. I would be happy to.
    Senator Inouye. We will see what we can do.
    Mr. Myers. Thank you.
    Senator Inouye. I thank you all very much.
    Senator Murkowski. Thank you, Mr. Chairman, for giving me 
the privilege to introduce the last panel here this morning, a 
group of fellow Alaskans. First we have Gordon Jackson, the 
director of the Business and Sustainable Development Central 
Council of the Tlingit and Haida Indians of Alaska, from 
Juneau. We also have Patty Brown-Schwalenberg from the Chugach 
Regional Resource Commission out of Anchorage, AK; and also Tom 
Harris, president and CEO of Alaska Village Initiatives, Inc., 
from Anchorage.
    Gentlemen, ladies, welcome.
    Mr. Jackson, if you would like to begin the panel here this 
morning, we would appreciate your comments. Thank you for 
coming all the way.

STATEMENT OF GORDON JACKSON, DIRECTOR, BUSINESS AND SUSTAINABLE 
   DEVELOPMENT CENTRAL COUNCIL, TLINGIT AND HAIDA INDIANS OF 
                             ALASKA

    Mr. Jackson. Thank you very much. I am pleased to be here. 
Thank you very much for the opportunity to speak on behalf of 
the Native people of Southeast Alaska regarding this important 
legislation you might be considering.
    I represent the Southeast Alaska Inter-Tribal Fish and 
Wildlife Commission that includes most of the federally 
recognized tribes of Southeast Alaska. I serve as the manager 
of the Division of Business and Sustainable Development for the 
regional tribal organization, the Central Council of Tlingit 
and Haida Indian Tribes of Alaska. We have over 26,000 members 
throughout the Pacific Northwest.
    It is a rather interesting situation when you combine 
business and sustainable development. I think I will divert 
from my formal comments that I have submitted for the record, 
and just outline some of my suggestions that I have that can be 
useful to you.
    Sustainable development, we are hopeful that over the next 
few months, the new governor will settle one of the issues 
relating to Alaska Native people, which is the settlement of 
the subsistence rights of Alaska Natives. He made that as a 
campaign promise, and we are looking forward to seeing a 
settlement of that. But within our Sustainable Development 
Division, we truly believe that management at the lowest common 
denominator to be the best system of management for subsistence 
rights for Alaska Natives. I say this in all honesty.
    Many smaller communities in Southeast Alaska have been 
implementing such a system. In the community of Angoon, the 
only community in the Admiralty Island area in Southeast 
Alaska, had a real crisis last several years in one of their 
sockeye creeks. They were losing population in that creek, and 
that community took it upon themselves to look at it and say, 
we are not going to harvest any sockeye from that stream. So 
the community went hundreds of miles away to harvest the 
sockeye that was needed because they wanted to bring back the 
numbers so that they can in fact keep that population healthy, 
so that their subsistence way of life and protecting that 
wonderful species could be retained into the future. They did 
so, and they find over the last several years in following this 
that the stream is gaining health and has continued to do that.
    In another community, the community of Kake basically 
working with the State and also the tribal government of Kake, 
the Organized Village of Kake, took it upon themselves in 
working with the State of Alaska to try to look at managing and 
making sure that the runs in Falls Creek about 30 miles to the 
west of Kake remained healthy. They did this together. I truly 
believe that one of the things that in the future relating to 
this could make the subsistence way of life a healthy system is 
that everyone sits together, the State, Federal Government, 
tribes and organizations, manage a way of life so that it is 
sustainable. I think there are all kinds of other models 
throughout Alaska that are working in relation to co-
management.
    I also say that in my position I deal with economic 
development. It is really rather interesting to note in my 57 
years of life, I see a tremendous change in the economic system 
in Southeast Alaska. There are a lot of people that have 
addressed the issue of economic development. My dad was the 
president for the Organized Village of Kake for most of my life 
when I was growing up. The president handled the cannery within 
the community of Kake.
    It is interesting to note in looking at the State of Alaska 
that people are always questioning whether there are tribes in 
the State of Alaska, and it is always fascinating for me to 
listen to constant debates relating to this. But there are 
tribes in Alaska. They have been there forever. Over 70 years 
ago, the Indian Reorganization Act of 1934 was extended to the 
State of Alaska in 1936. That has resulted in most of the 
Southeast Alaska communities organizing into Indian 
Reorganization Act corporations. All of the communities in 
Southeast Alaska became one, and many of them became real proud 
owners and participants in the economic development of the 
fisheries in Southeast Alaska.
    These tribes and tribal organizations owned fish canneries 
throughout Southeast Alaska, and the communities of Kake, 
Klawock, Hydaberg, Angoon, Metlakatla, and Hoonah owned fish 
traps. They owned huge fishing fleets. They were real proud 
fishing fleets. They owned fish traps, like I said, and the 
canneries in most of these communities were very, very healthy 
economically. But with the declining fish runs in the 1950's, 
many of these communities began to lose money. The people who 
funded these operations, the BIA through loan programs, started 
to closely scrutinize these kinds of economic development-type 
projects. By the 1970's, most of these canneries left many of 
these smaller communities. Therefore, many of these smaller 
communities lost the huge fishing fleets.
    I can give you some examples of the loss of some of these 
fishing fleets, and many of these fishing fleets are a direct 
result of not only the loss of processors, but also policies of 
the State of Alaska. Intentionally or unintentionally, the 
State of Alaska got rid of the fish traps and also included the 
limited entry fishing programs. With the loss of fish traps and 
processors, many of these tribal fishermen left the industry. I 
can tell you some of these statistics today, and I feel really, 
really sad.
    In the community of Kake, when the limited entry fishing 
program first started, there were 27 permits in that community. 
Today, there are only eight really functional and very active 
permits. In the community of Angoon, they had 27 limited entry 
permits. They now have one active permit. In the community of 
Hoonah, who is a very, very proud member of the fishing fleet, 
had over 60. They began the operations with the Icy Straits 
fishing, which could have begun in late June, but we were 
stopped because of the policies of the State Department of Fish 
and Game, which basically saw a lot of the early runs over-
harvested in the Icy Straits area. The community of Hoonah has 
suffered greatly because of the loss of this economic 
development-type activity.
    Few native corporations in Southeast Alaska have taken it 
upon themselves to make this a part of their portfolio. One 
community in Southeast Alaska, the community of Kake, basically 
invested a lot of their activities into the fishing industry. 
As a result, they have taken it upon themselves to come up with 
value-added products development, and have begun to bring back 
hopefully the industry that has become part of the livelihood 
of many of these smaller communities over the last several 
years. It is coming back in that community, and hopefully over 
the next several years we will be able to provide some 
assistance and policies relating to this, so that it could 
become part of the economic development activity of the whole 
communities.
    But basically, Mr. Chairman, I appreciate your looking at 
these management-efficient wildlife activities. Like our 
brothers and sisters in the South 48, we fully support the 
activities relating to such an act. We truly believe that we 
can in fact as tribes and tribal organizations in Southeast 
Alaska, can in fact become real active partners in such an act. 
We have in fact become partners with many tribes and tribal 
organizations in the South 48. We got our model for the Inter-
Tribal Fish and Wildlife Commission from the Columbia River 
Inter-Tribal Fish and Wildlife Commission. We thank them almost 
on a daily basis for giving us that model, because it brought 
us together in a unified voice to look at this one type of 
activity in Southeast Alaska. We truly believe that that is the 
way to go to address these kinds of policies and things like 
that. We endorse it fully.
    Thank you very much for giving me the opportunity to 
comment relating to this. Thank you, Mr. Chairman.
    [Prepared statement of Mr. Jackson appears in appendix.]
    Senator Murkowski. I will go ahead, and if you can give 
your testimony for us, Ms. Brown-Schwalenberg.

  STATEMENT OF PATTY BROWN-SCHWALENBERG, EXECUTIVE DIRECTOR, 
             CHUGACH REGIONAL RESOURCES COMMISSION

    Ms. Brown-Schwalenberg. Thank you.
    My name is Patty Brown-Schwalenberg. I am the executive 
director of the Chugach Regional Resources Commission, more 
commonly known by its acronym CRRC. I would also like to thank 
the committee for the opportunity to testify, as well as 
Senator Murkowski and her staff for their support of our 
programs.
    I would also like to take a moment to acknowledge the 
village chiefs and presidents of the Chugach region for whom I 
work, as well as the elders of my tribe, the Lac du Flambeau 
Band of Lake Superior Chippewa Indians for sharing their 
knowledge and wisdom of the resources with me that has allowed 
me to work in the area that I do, and that I have for the past 
20 years.
    The Chugach Regional Resources Commission is a non-profit 
Alaska Native group established in 1984 by the seven tribes in 
the Chugach region. I should first list the tribes as the 
Tatitlik IRA Council, the Chenega IRA Council, the Port Graham 
Village Council, the Nanwalek IRA Council, Native Village of 
Eyak, Qutekcak Native Tribe, and the Valdez Native Tribe. We 
are located in South-Central Alaska and Lower Cook Inlet and 
Prince William Sound.
    CRCC was formed to collectively address the issues of 
mutual concern regarding the stewardship of the natural 
resources, subsistence, the environment, and to develop 
culturally appropriate economic projects that support the 
development and operation of, and promote the sustainable 
development of the natural resources. Over the past 19 years 
that this inter-tribal commission has been in existence, we 
have supported the development and operation of many natural 
resource projects and programs, and helped the communities 
provide meaningful employment opportunities, as well as 
valuable services and products to the people and the State of 
Alaska.
    I would just like to read into the record the statement of 
purpose so you can get a more holistic idea of what we do and 
why we are in existence, and that is to promote tribal 
management of the natural resources traditionally utilized in 
ways consistent with cultural traditions and values of the 
Chugach people; provide formal advocacy to assure that private, 
State and Federal land and resource management agencies will 
work cooperatively with the tribes to manage natural resources 
in ways consistent with the cultural traditions and values of 
the Chugach Tribes; to develop and enhance natural resource 
management education and training opportunities for Chugach 
tribal governments to improve the management capabilities of 
the tribes; and promote sustainable and economically sound 
natural resource development that will improve the well-being 
of the Chugach Tribes.
    I agree with many of my colleagues and friends that have 
spoken before me that the physical, social, cultural, economic 
and spiritual importance of natural resources is just as 
important in Alaska. We do have a little bit different 
situation in that preserving and protecting the resources is 
vital to the people in Alaska. A lot of them do not have 
grocery stores where they can get store-bought food, but there 
is a much heavier reliance on the subsistence harvest for their 
life styles.
    With that in mind, I just wanted to run down a few of the 
projects that CRCC has worked with the tribes to develop. First 
of all, the development of tribal natural resource programs 
needs of the communities has been an ongoing effort to help the 
tribes be more meaningfully involved in the natural resource 
management projects and decisions that affect the traditional 
use areas of the Chugach region. The Exxon-Valdez Oil Spill 
Trustee Council has a Gulf Ecosystem Monitoring Program that is 
just starting up, so the tribes need to have people in place to 
be more meaningfully involved in that effort.
    The recently instituted Federal Subsistence Fisheries 
Management Projects occurring in traditional use areas 
requires, I believe, tribal participation, as well as potential 
co-management of the outer-continental shelf fisheries. We have 
also been working on developing tribal natural resource 
management plans for each of the tribes, in association with 
the Geographic Information System mapping of traditional use 
areas, the harvest areas where the species are located in 
different times of the year, and that kind of thing.
    Another region-wide effort is we have been working, 
spearheaded by the Tatitlek IRA Council is a vocational 
technical level of curriculum for natural resource management 
based on the traditional philosophies and management strategies 
of tribes. The partners in that effort are University of 
Alaska, the Anchorage School District, U.S. Forest Service, 
U.S. Fish and Wildlife Service, Alaska Department of Fish and 
Game, Native American Fish and Wildlife Society, the tribes in 
the Chugach region, Chugach MUTE, which is the native 
nonprofit, and Chugach Alaska, the regional for-profit ANCSA 
corporation. We have a three-year grant to institute that 
program, so we are hoping after three years we will have that 
complete and instituted.
    In 1990, CRRC provided the program village council with 
funding and technical expertise to start a hatchery program. 
They are currently expecting about 300,000 adult pink salmon to 
return this year, which will fill the hatchery to capacity. 
This is a brand new hatchery that was recently built to replace 
one that was destroyed by fire in 1998. The unique situation 
with this hatchery is that we worked with the village 
corporation and the tribal government to build a hatchery-
cannery facility, so that the fish are released in virtually 
the same place where the cannery is. The buildings are 
connected, so the fish come basically right back to the 
cannery, so there is virtually very little transportation costs 
involved in that project.
    We also have a cooperative project with the Nanwalek IRA 
Council. They started a program with our assistance to bring 
back the sockeye salmon in their lake system, which was a 
resource shared by both Port Graham and Nanwalek. They are four 
miles apart. So the eggs are taken in Nanwalek, shipped to Port 
Graham where they are hatched and reared to a smolt size; 
returned back to Nanwalek where they are put in the lake system 
where they are reared until they are released in October or 
November, and then they return. That project has produced over 
220,000 adult sockeye salmon that have returned to the English 
Bay River and associated fisheries since 1990. As a result of 
that program, it has allowed the first commercial and 
subsistence harvest of sockeye to occur in 11 years, and that 
was several years ago when that happened. So that was a pretty 
neat thing.
    In the mariculture arena, the Tatitlek Mariculture Project 
is an oyster farm that they are operating down there. They have 
operated since 1992. They get their seed from the Qutekcak 
Native Tribe who we have helped develop a tribal shellfish 
hatchery, which I will speak to in a moment. The Tatitlek 
project in addition to doing the natural resource program in 
the GRS and things I spoke about previously, their operation 
markets 200 dozen to 300 dozen oysters a week. It is on its way 
to becoming a profitable and thriving tribal business. This 
project employs five tribal members. In a village of 100 
people, that is putting food on the tables of five families, so 
it is a huge impact.
    Like I said, they got their oyster seed from the Qutekcak 
shellfish hatchery. This hatchery started in a small pilot lab, 
basically, several years ago. Two of the tribal members were 
trying to do something with littleneck clams, and it turned out 
they actually were the first in the country to produce 
littleneck clams in a hatchery successfully. So we built upon 
that success story, and they now are in a state-of-the-art 
hatchery and they are spawning, hatching and rearing littleneck 
clams, Pacific oysters, cockles and geoducks for sale to 
shellfish farms in Alaska and elsewhere. They also are 
participating in the Shellfish Restoration Project that we 
started about eight years ago to restore shellfish beds in the 
coastal areas around the villages. That was funded originally 
through the Exxon-Valdez Trustee Council as a pilot project, 
and now it is currently running on its own, where the clam seed 
are planted on the beaches in the villages, and then harvested 
three years later basically for subsistence purposes.
    That is just an overview of some of the programs that we 
assist the tribes in working on. We get our base funding from 
the BIA. It has been $350,000 a year ever since we have been in 
existence, and like the Circle of Flight Program, we were 
zeroed out of the budget in 2003 and zeroed out again in 2004. 
Our funding was reinstated for 2003 with a minor cut, so we are 
working with Senator Murkowski, Senator Stevens, and 
Congressman Young to try and get our funding reinstated.
    Even in the State of Alaska, there is approximately $2 
million of BIA funding that goes toward natural resources, 
compared to some of the commissions in the lower 48 whose 
budgets are probably a lot larger than that. There is a real 
need in Alaska for tribal natural resource funding. It is very 
slim, but we manage to do a lot with the small amount of money 
that we have.
    The programs that I highlighted are only in the Chugach 
region, and there are a lot of tribes in Alaska that have 
tribal natural resource programs and are doing a lot of neat 
things. They not only provide employment opportunities, but 
sound scientific data to assist the State and Federal 
management agencies in their management efforts for the benefit 
of all users.
    I appreciate the opportunity to present this information, 
and I would be happy to answer any questions at the appropriate 
time. Thank you.
    [Prepared statement of Ms. Brown-Schwalenberg appears in 
appendix.]
    Senator Murkowski. Thank you.
    And now Tom Harris. Welcome.

  STATEMENT OF TOM HARRIS, PRESIDENT AND CEO, ALASKA VILLAGE 
                       INITIATIVES, INC.

    Mr. Harris. Thank you. We appreciate the opportunity to 
testify. On behalf of Alaska Village Initiatives and its 
statewide memberships, our officers, directors and staff, we 
thank you for this opportunity.
    Alaska Village Initiatives, sometimes known as AVI, is 
Alaska's oldest and largest statewide community development 
corporation, and one of the few remaining CDCs nationwide. We 
were created in 1968 by President Johnson's War on Poverty. Our 
mission is to improve the economic well-being of America's 
rural communities in Alaska. Our membership and our board are 
composed of 95 percent Alaska Native tribes and ANCSA 
Corporations representing some of America's largest aboriginal 
communities still subsisting on our ancestral lands.
    I am a member of the Taantakwaan Teikweidee or Bear Clan of 
the Tongass Tribe of the Ketchikan area. With us is the chair 
of our Village Wildlife Conservation Consortium, Katherine 
Andersen, and Dr. Bruce Borup, formerly the head of the 
Business Department for Alaska Pacific University, and recently 
the new CEO of Cape Fox Corporation, an ANCSA Village 
Corporation in Saxman.
    Our mission today is to share with you one critical issue 
affecting Alaska Native tribes and corporations in the 
management of Alaskan wildlife and wildlife habitat. From an 
Alaska Native perspective, Alaska's wildlife habitat 
populations are facing the greatest survival challenge in our 
history. We as Alaska Natives need your help. At no time in 
Alaska's history has the demand been greater for wildlife and 
wildlife habitat. This demand comes from predation, from 
recreational hunting and fishing, viewing, and from subsistence 
as our primary economy in rural Alaska. The greatest new 
pressure is from tourism, which has doubled in the last seven 
years and is positioned to double again in the next seven years 
as more Americans reach for retirement and their wildlife 
experience in Alaska. Alaska's wildlife habitat is not prepared 
for this demand, with decreasing wildlife populations on public 
and private lands.
    In spite of the fact that the Alaska Native Claims 
Settlement Act is now more than 30 years old, there is as of 
yet no comprehensive Statewide plan either with a State or 
Federal agency on effective and cooperative management of 
wildlife habitat of nearly 40 million acres of native 
corporation land. In spite of the availability of modern 
technology to track urban criminals and record them, the same 
technology that can be used to track and record wildlife from 
altitudes as high as 2,000 feet, no one truly knows to this 
date what the wildlife census in Alaska is.
    As a result of our reliance on unaudited, unverifiable 
wildlife census figures throughout Alaska, we have had endless 
discrepancies and debates spanning decades over falling harvest 
levels and who is to blame. Environmentalists blame hunting, 
oil, mining and timber industries. Hunters blame rural 
residents and Alaska Native subsistence users. Hunters and 
subsistence users blame predators that are the favored species 
of environmentalists, and soon we are beginning the whole 
process over again.
    Alaska has millions of acres of dead and dying forests that 
are now over-mature and disease-ridden with bark beetle. 
Without occasional forest fires or prescribed burns to promote 
new growth, there is less food for wildlife. Without food, the 
current ecosystem may collapse. As a comparison, the 
Scandinavian nations of Norway, Sweden and Finland have less 
habitat acreage than Alaska does, yet they produce 26 times 
Alaska's current capacity. This is done through a higher 
quality and quantity of feed for the moose; a higher productive 
habitat.
    At this moment in time, the State is struggling to meet 
this need, both as agencies and native corporations. As an 
example, one fish and game officer oversees an area the size of 
California, and he has no administrative support. Despite 
having one of the leading wildlife harvest management systems 
in the country, Alaska's production level struggles, producing 
on a per-acre basis less productive habitat than any other 
State in the Union. We rank 50th. In fact, based on 2001 
records, it appears that four times more grazing wildlife was 
harvested within 100 miles of where we sit today here in 
Washington, DC than was harvest in all of Alaska's 365 million 
acres.
    As demand to increase access to Alaska's wildlife habitat 
grows, so does this paradox of the image the world has of 
Alaska as the last frontier and America's last, best hope for 
the protection of wildlife and wildlife habitat. Remote areas 
such as the Upper Kuskokwim have seen as much as a 97-percent 
reduction in moose population in the last couple of decades. 
The Alaska Department of Fish and Game estimates the 
replacement costs for that 800-pound moose in winter's protein 
to a native community or a rural resident at $3 to $5 a pound, 
representing a $2,400 to $4,000 impact for a person with per 
capita income of just $13,000 annually. This forces those 
individuals to place a greater reliance on food stamps and 
depleted subsistence salmon harvests.
    However, there is hope. There is good news. That hope and 
good news is that we now know that our lower 49 sister States 
have had more successful wildlife production due to an economic 
resource tool that not only helped them restore their wildlife 
habitat, but also enabled them to access tourism in a 
sustainable and ecologically stable manner. Until very 
recently, this funding was not available to Alaska. That 
economic resource tool is the USDA Natural Resource 
Conservation Service which provides funding nationwide to 
private landowners for the purpose of conserving and restoring 
wildlife habitat on privately owned lands. USDA also conducts 
the Natural Resource Inventory, which provides data that USDA 
utilizes to plan its funding to those landowners in 2001. This 
funding program provided $350 million for this purpose.
    However, there are challenges. The 1997 Natural Resource 
Inventory specifically omits or excludes all Federal lands and 
Alaska. Alaska is the only State to be so excluded, and only 
recently began receiving a small amount of money. USDA provided 
$523,000 to Alaska landowners in 2001, or 0.15 percent of the 
national budget. In comparison, 1 lower 49 State received over 
$19 million, or more than 5 percent of the national budget. 
Only Rhode Island received less funding than Alaska did. 
However, on a per-acre basis, Alaska received only 2 percent of 
what Rhode Island received. We know, having discussed this with 
them, that the local USDA directors are aware of this disparity 
and are doing what little they can to address this obvious 
inequity.
    The Natural Resource Inventory has been conducted every 
five years since 1982, but in the past 20 years no correction 
of Alaska's omission has been proposed or planned. We hope that 
the visit here with you today will help spur that correction. 
Alaska Village Initiatives respectfully requests rapid action 
by this committee and USDA on behalf of Alaska's wildlife 
habitat to help Alaskans and Alaskan communities recover as a 
State to better prepare for the increasing demand for our 
fellow Americans who are coming to participate on an ever-
increasing level to see Alaska's wildlife heritage.
    Alaska Village Initiatives is an economic tool created by 
this Congress to serve our citizens and our country in this 
small way. It has been our duty and our joy to serve in this 
capacity for more than 35 years. It is our hope that in 
providing this testimony, we have been of service here today. 
Our members and our board as aboriginal tribes and native 
corporations have been taught to care for the land as for each 
other. However, the growing demand for access to this resource 
is beyond our humble abilities to care for without further 
incurring damage to the habitat.
    Economic hardship has forced many native allotment owners 
to sell out, and we are seeing signs today that thousands of 
acres of ANCSA land are moving towards sale to the highest 
bidder. Our tribes and our corporations cordially welcome 
visitors. However, demand is now so great that we now are 
asking for help. As Americans, we do not want to be ashamed by 
having to turn away our own citizens, for we as Alaska Natives 
and American Natives understand what it is to be turned away.
    Alaska's habitat is indeed America's national treasure, 
whether it is in a national park or on private lands. This is 
America's challenge on how best to provide protection of and 
access to Alaska's premier wildlife habitat in a way that is 
safe and sane. This Congress saw fit to protect the resources 
on private lands in the lower 49, as their habitats were 
impacted by increased visitation. We respectfully request that 
Alaska now be included as a full participant in the protection 
of wildlife habitat on private lands as provided to all other 
States.
    We thank you for your kind attention to this matter. If we 
at AVI can be of any assistance, please call on us. On behalf 
of our tribes and our members, Gunaalcheesh, Quyana, Anabasi, 
Howa, and thank you.
    [Prepared statement of Mr. Harris appears in appendix.]
    Senator Murkowski. Thank you all. I appreciate your 
testimony this afternoon.
    Mr. Chairman, I am more than a few minutes late for my next 
meeting, so I am going to have to excuse myself. But Mr. 
Harris, I would hope that my office would be able to work with 
you and the Alaska Village Initiatives to ensure that as we 
attempt to survey what it is that we have, that Alaska gets the 
appropriate level of funding. It is quite apparent from looking 
at the preparation that you have done for this hearing that 
there have been some inequities over the years. I am not quite 
certain why or how. Let's get beyond that and just correct it.
    Mr. Harris. Yes, ma'am.
    Senator Murkowski. I don't know, perhaps I misunderstood or 
was not quite clear, but Ms. Brown-Schwalenberg, I thought you 
said that at least at Chugach there was some mapping of the 
wildlife resources that are around. So is it kind of on a 
sporadic unofficial basis, and that has been our problem? We do 
not have a verifiable source that we can look to?
    Mr. Harris. That is absolutely the case. We are tracking 
wildlife today the same way we did at statehood. Someone gets 
in a plane, flies it 500 feet above the ground, looks out a 
window and tries to count the animals that they fly over the 
forest. There is a formula that they use to extrapolate, but 
that formula does not take into consideration the increased 
demand and the impacts of habitat degradation. So we are 
proposing that the new technology of heat-sensor cameras can do 
a much better job at 2,000 feet, and provide a permanent record 
that is verifiable.
    Senator Murkowski. I thought your comments about 
essentially the ability to hunt around the DC area, you have 
got greater ability to bag an animal up here than you would in 
Alaska. Sometimes I think our animals manage us rather than the 
reverse. I am not suggesting that we need to get out and farm 
everything, but we should probably do a better job with what we 
have. As you point out, first we need to know what it is that 
we have.
    Mr. Harris. Yes, ma'am.
    Senator Murkowski. So I appreciate the comments of all 
members of the panel that I have been able to sit in on.
    Mr. Chairman, thank you.
    Senator Inouye. Thank you very much.
    Mr. Jackson, you presented a rather dismal picture of some 
of the conditions, canneries closing, fishing fleets 
disappearing and such. And you pointed out that the stock has 
diminished. How is it now? Have the fish come back?
    Mr. Jackson. Mr. Chairman, we have so much salmon we do not 
know what to do with them. The one creek that I was talking 
about was a subsistence creek, Kanalku on Admiralty Island. The 
stocks of sockeye salmon had diminished, but overall the runs 
of pink, chum, silver, we are expecting record runs this year.
    Senator Inouye. And nobody wants to get back there?
    Mr. Jackson. Pardon me?
    Senator Inouye. You said that canneries closed.
    Mr. Jackson. The canneries have been moving back from 
rural, smaller communities for the last 30 years. The canneries 
located in the smaller communities, largely native communities, 
all of them have closed since 1970. The bigger processors 
basically moved to larger communities like Petersburg and other 
locations where the labor and transportation costs are lower. 
So many of these fishermen have to run many, many miles to sell 
their products. So largely native fishermen have gotten out of 
the business, not only because of the length of time that you 
have to run to sell your catch, but also the prices and a whole 
number of other factors that are just tremendous.
    The fact is also that we have a huge competition from 
farmed salmon. Farmed salmon has brought down the price of 
salmon largely down to the bottom. I remember in 1989 when I 
was a commercial person, and when I was a teacher, we were 
selling to fish buyers at 80 cents per pound for humpies, pink 
salmon. Last year, they were being bought for five cents a 
pound, which is really a huge drop in a little over 10 years. 
So the price and the market conditions have changed 
substantially.
    Senator Inouye. What is the solution?
    Mr. Jackson. The solution basically is to continue the 
strategy and continue within the system, that the market in the 
wild salmon, which I believe is the best in the whole world. 
Wild salmon tastes great. I truly believe that in the future, 
the marketing systems will show that wild salmon tastes the 
best and is the most healthy. I think that any discussion of 
any kind of bill relating to this that you are considering 
should include marketing-type activity, because one of the 
biggest problems relating to marketing the wild salmon is the 
cost. I am pretty sure that everybody from the Pacific 
Northwest will tell you exactly what I am telling you.
    Senator Inouye. Ms. Brown-Schwalenberg, your problem, what 
should we do? Restore the hatcheries?
    Ms. Brown-Schwalenberg. I am sorry?
    Senator Inouye. You spoke of your hatcheries closing up 
because of a lack of funds.
    Ms. Brown-Schwalenberg. Yes.
    Senator Inouye. Would restoration help?
    Ms. Brown-Schwalenberg. Of the fishery?
    Senator Inouye. The hatcheries.
    Ms. Brown-Schwalenberg. Yes; right now, the Port Graham 
hatchery operates. We get $350,000 from the BIA. They get a 
majority of that. They get a big share of that funding, and 
then the rest they try to get through other grants just to keep 
it operating. So that has always been a problem. The work that 
they have done has been of great benefit to the community, but 
the problem is keeping it going.
    Senator Inouye. Will you get a hold of the staff people and 
discuss this matter with them?
    Ms. Brown-Schwalenberg. Certainly.
    Senator Inouye. Because we are just on the beginning of the 
cycle on appropriations, and that would be helpful.
    Mr. Harris, needless to say, your stats were rather 
depressing. What can we do?
    Mr. Harris. As mentioned, while this is an item that 
directly impacts Native Americans, specifically rural Alaskans 
in some of the poorest areas in the Nation, there is 
opportunity. We have a wonderful economy of tourism. However, 
the communities are not prepared for that. I am also the 
director of the Cape Fox Corporation. There, we welcome 
industrial tourists. We step off the cruise ships. We welcome 
60,000 tourists through our village of 500 people. However, we 
are unique. That cannot happen in a village in remote Alaska. 
That tourism market, it is much different. It is a market that 
caters to an individual looking for a more remote experience. 
That market is strong today and growing stronger year by year. 
However, the villages are not prepared for that.
    As you know, subsistence is a huge issue in these 
communities. Through the generous guidance and assistance from 
Senator Ted Stevens, Alaska Village Initiatives has been 
promoting private land wildlife management on models in the 
lower 48. We have been very encouraged by those models because 
they do two things. They produce abundant wildlife, as we have 
seen here, that occurs here now within 50 miles and 100 miles 
of where we sit. That abundant wildlife takes care of the 
subsistence needs. It also produces a surplus that attracts the 
high-end tourist.
    So the community has a choice. It can take care of its 
needs, and we encourage it to do so, first having the tribe 
work with the corporation to develop a subsistence program, and 
then pursue the economy with the surplus, as we have seen with 
the wonderful success of the Apache White Mountain Program. 
They are a stellar program, and we have been having visits with 
them and modeling our efforts after similar programs throughout 
the West.
    So one of the things that we are missing is the 20 years 
that, actually almost 25 years now, that NRCS has been funding 
these programs in the lower 49 States. It is just now beginning 
at a very small trickle. It needs to be accelerated for Alaska, 
and these landowners need to have the resources necessary to 
rebuild that stock.
    When we look at Alaska, it is not over-predation; it is not 
over-hunting; and it is not even harsh winters. There is not 
enough food. Without food, the cycle of life cannot be 
complete. This wildlife needs that food, and over-mature 
forests cannot produce that. We need a healthy forest.
    Senator Inouye. How is your caribou stock?
    Mr. Harris. The caribou stock is doing well. I have to say 
that it is 32,300 that were harvested in 2001. It is one of the 
very few programs that have a comprehensive management program. 
However, when you take into consideration the deer and the 
moose, and the moose being so critical to many areas, we 
harvest 7,000 moose. On less habitat, less acreage, 185,000 
moose are being harvested in the Scandinavian countries.
    Senator Inouye. I ask that question because when the 
pipeline was built, and I supported the pipeline, many said 
that the caribou flock would be wiped out. It was not wiped 
out.
    Mr. Harris. No; not by any means, because it is so well 
managed, it is a success story, but the caribou only live in 
certain areas, and that sustenance is not available to many 
areas of the State.
    Senator Inouye. Now they are telling us that it would be 
wiped out if ANWR is developed.
    Mr. Harris. On a personal basis, Mr. Chairman, I have 
trouble believing that, especially considering the numbers that 
we see growing within 100 miles of where we sit. The issue is 
managing the wildlife life cycle in a way that provides them 
food, water and shelter. It is obvious from the success of this 
program in the lower 48 that that has been met for those 
species. We do not have that right now in Alaska. As you know, 
the South Central Alaska is besieged in spruce bark beetle-
killed timber. That represents a tremendous fire hazard, but 
they are called dead standing for a reason. They stay dead-
standing for a long time, and we have two billion board feet of 
dead-standing white spruce in the middle of the Yukon, where 
our elders tell us that there is no life. Sunlight cannot get 
through there. Until they burn down, they is certainly not 
going to be timber harvested. They need to burn down to promote 
new growth.
    Senator Inouye. I thank you all very much for your 
patience. It has been an eye-opener for me. It just reminded me 
that I better go back to Indian country again.
    Mr. Harris. Welcome.
    Senator Inouye. It has been a long time since I have been 
to the Arctic Circle. It has been a long time since I have been 
back to northern Wisconsin. Do I have to take a bullet-proof 
vest to go to northern Wisconsin? [Laughter.]
    Thank you very much.
    [Whereupon, at 12:30 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    Mr. Chairman and Mr. Vice Chairman, I would like to thank you for 
today's hearing on an issue that is vitally important to tribes in the 
Pacific Northwest and to the country as a whole.
    In Washington State, Indian tribes are making significant 
contributions to improve the management of fish and wildlife resources 
and to help protect and recover Pacific salmon stocks.
    Through the inter-tribal organizations represented here today, 
Washington State tribes are working as full partners with the State of 
Washington, Federal agencies and other stakeholders to promote salmon 
recovery and sound natural resource management.
    I would like to welcome Billy Frank of the Northwest Indian 
Fisheries Commission, Olney Patt, executive director, Columbia River 
Inter-Tribal Fish Commission and Warren Seyler, chairman, Upper 
Columbia United Tribes.
    I would also like to congratulate Mr. Patt for his recent 
appointment to head the Columbia River Inter-Tribal Fish Commission. I 
look forward to working with you in your new capacity.
    Mr. Chairman, through the leadership of these organizations, 
Washington state tribes have worked very hard to promote salmon 
recovery across the State.
    The tribes and the region face very difficult challenges to manage 
tribal resources on tribal lands and to work with partners outside of 
reservation boundaries--to help manage salmon, shellfish, marine 
fisheries and other fish and wildlife species over the long-term.
    Mr. Chairman, I look forward to working with you and Senator Inouye 
on these matters as the Committee considers legislative proposals to 
provide for greater Federal assistance to tribes to help fulfill our 
obligations to Indian tribes in the Northwest and across the country.
[GRAPHIC] [TIFF OMITTED] T7608.001

[GRAPHIC] [TIFF OMITTED] T7608.002

[GRAPHIC] [TIFF OMITTED] T7608.003

[GRAPHIC] [TIFF OMITTED] T7608.004

[GRAPHIC] [TIFF OMITTED] T7608.005

[GRAPHIC] [TIFF OMITTED] T7608.006

[GRAPHIC] [TIFF OMITTED] T7608.007

[GRAPHIC] [TIFF OMITTED] T7608.008

[GRAPHIC] [TIFF OMITTED] T7608.009

[GRAPHIC] [TIFF OMITTED] T7608.010

[GRAPHIC] [TIFF OMITTED] T7608.011

[GRAPHIC] [TIFF OMITTED] T7608.012

[GRAPHIC] [TIFF OMITTED] T7608.013

[GRAPHIC] [TIFF OMITTED] T7608.014

[GRAPHIC] [TIFF OMITTED] T7608.015

[GRAPHIC] [TIFF OMITTED] T7608.016

[GRAPHIC] [TIFF OMITTED] T7608.017

[GRAPHIC] [TIFF OMITTED] T7608.018

[GRAPHIC] [TIFF OMITTED] T7608.019

[GRAPHIC] [TIFF OMITTED] T7608.020

[GRAPHIC] [TIFF OMITTED] T7608.021

[GRAPHIC] [TIFF OMITTED] T7608.022

[GRAPHIC] [TIFF OMITTED] T7608.023

[GRAPHIC] [TIFF OMITTED] T7608.024

[GRAPHIC] [TIFF OMITTED] T7608.025

[GRAPHIC] [TIFF OMITTED] T7608.026

[GRAPHIC] [TIFF OMITTED] T7608.027

[GRAPHIC] [TIFF OMITTED] T7608.028

[GRAPHIC] [TIFF OMITTED] T7608.029

[GRAPHIC] [TIFF OMITTED] T7608.030

[GRAPHIC] [TIFF OMITTED] T7608.031

[GRAPHIC] [TIFF OMITTED] T7608.032

[GRAPHIC] [TIFF OMITTED] T7608.033

[GRAPHIC] [TIFF OMITTED] T7608.034

[GRAPHIC] [TIFF OMITTED] T7608.035

[GRAPHIC] [TIFF OMITTED] T7608.036

[GRAPHIC] [TIFF OMITTED] T7608.037

[GRAPHIC] [TIFF OMITTED] T7608.038

[GRAPHIC] [TIFF OMITTED] T7608.039

[GRAPHIC] [TIFF OMITTED] T7608.040

[GRAPHIC] [TIFF OMITTED] T7608.041

[GRAPHIC] [TIFF OMITTED] T7608.042

[GRAPHIC] [TIFF OMITTED] T7608.043

[GRAPHIC] [TIFF OMITTED] T7608.044

[GRAPHIC] [TIFF OMITTED] T7608.045

[GRAPHIC] [TIFF OMITTED] T7608.046

[GRAPHIC] [TIFF OMITTED] T7608.047

[GRAPHIC] [TIFF OMITTED] T7608.048

[GRAPHIC] [TIFF OMITTED] T7608.049

[GRAPHIC] [TIFF OMITTED] T7608.050

[GRAPHIC] [TIFF OMITTED] T7608.051

[GRAPHIC] [TIFF OMITTED] T7608.052

[GRAPHIC] [TIFF OMITTED] T7608.053

[GRAPHIC] [TIFF OMITTED] T7608.054

[GRAPHIC] [TIFF OMITTED] T7608.055

[GRAPHIC] [TIFF OMITTED] T7608.056

[GRAPHIC] [TIFF OMITTED] T7608.057

[GRAPHIC] [TIFF OMITTED] T7608.058

[GRAPHIC] [TIFF OMITTED] T7608.059

[GRAPHIC] [TIFF OMITTED] T7608.060

[GRAPHIC] [TIFF OMITTED] T7608.061

[GRAPHIC] [TIFF OMITTED] T7608.062

[GRAPHIC] [TIFF OMITTED] T7608.063

[GRAPHIC] [TIFF OMITTED] T7608.064

[GRAPHIC] [TIFF OMITTED] T7608.065

[GRAPHIC] [TIFF OMITTED] T7608.066

[GRAPHIC] [TIFF OMITTED] T7608.067

[GRAPHIC] [TIFF OMITTED] T7608.068

[GRAPHIC] [TIFF OMITTED] T7608.069

[GRAPHIC] [TIFF OMITTED] T7608.070

[GRAPHIC] [TIFF OMITTED] T7608.071

[GRAPHIC] [TIFF OMITTED] T7608.072

[GRAPHIC] [TIFF OMITTED] T7608.073

[GRAPHIC] [TIFF OMITTED] T7608.074

[GRAPHIC] [TIFF OMITTED] T7608.075

[GRAPHIC] [TIFF OMITTED] T7608.076

[GRAPHIC] [TIFF OMITTED] T7608.077

[GRAPHIC] [TIFF OMITTED] T7608.078

[GRAPHIC] [TIFF OMITTED] T7608.079

[GRAPHIC] [TIFF OMITTED] T7608.080

[GRAPHIC] [TIFF OMITTED] T7608.081

[GRAPHIC] [TIFF OMITTED] T7608.082

[GRAPHIC] [TIFF OMITTED] T7608.083

[GRAPHIC] [TIFF OMITTED] T7608.084

[GRAPHIC] [TIFF OMITTED] T7608.085

[GRAPHIC] [TIFF OMITTED] T7608.086

[GRAPHIC] [TIFF OMITTED] T7608.087

[GRAPHIC] [TIFF OMITTED] T7608.088

[GRAPHIC] [TIFF OMITTED] T7608.089

[GRAPHIC] [TIFF OMITTED] T7608.090

[GRAPHIC] [TIFF OMITTED] T7608.091

[GRAPHIC] [TIFF OMITTED] T7608.092

[GRAPHIC] [TIFF OMITTED] T7608.093

[GRAPHIC] [TIFF OMITTED] T7608.094

[GRAPHIC] [TIFF OMITTED] T7608.095

[GRAPHIC] [TIFF OMITTED] T7608.096

[GRAPHIC] [TIFF OMITTED] T7608.097

[GRAPHIC] [TIFF OMITTED] T7608.098

[GRAPHIC] [TIFF OMITTED] T7608.099

[GRAPHIC] [TIFF OMITTED] T7608.100

[GRAPHIC] [TIFF OMITTED] T7608.101

[GRAPHIC] [TIFF OMITTED] T7608.102

[GRAPHIC] [TIFF OMITTED] T7608.103

[GRAPHIC] [TIFF OMITTED] T7608.104

[GRAPHIC] [TIFF OMITTED] T7608.105

[GRAPHIC] [TIFF OMITTED] T7608.106

[GRAPHIC] [TIFF OMITTED] T7608.107

[GRAPHIC] [TIFF OMITTED] T7608.108

[GRAPHIC] [TIFF OMITTED] T7608.109

[GRAPHIC] [TIFF OMITTED] T7608.110

[GRAPHIC] [TIFF OMITTED] T7608.111

[GRAPHIC] [TIFF OMITTED] T7608.112

[GRAPHIC] [TIFF OMITTED] T7608.113

[GRAPHIC] [TIFF OMITTED] T7608.114

[GRAPHIC] [TIFF OMITTED] T7608.115

[GRAPHIC] [TIFF OMITTED] T7608.116

[GRAPHIC] [TIFF OMITTED] T7608.117

[GRAPHIC] [TIFF OMITTED] T7608.118

[GRAPHIC] [TIFF OMITTED] T7608.119

[GRAPHIC] [TIFF OMITTED] T7608.120

[GRAPHIC] [TIFF OMITTED] T7608.121

[GRAPHIC] [TIFF OMITTED] T7608.122

[GRAPHIC] [TIFF OMITTED] T7608.123

[GRAPHIC] [TIFF OMITTED] T7608.124

[GRAPHIC] [TIFF OMITTED] T7608.125

[GRAPHIC] [TIFF OMITTED] T7608.126

[GRAPHIC] [TIFF OMITTED] T7608.127

[GRAPHIC] [TIFF OMITTED] T7608.128

[GRAPHIC] [TIFF OMITTED] T7608.129

[GRAPHIC] [TIFF OMITTED] T7608.130

[GRAPHIC] [TIFF OMITTED] T7608.131

[GRAPHIC] [TIFF OMITTED] T7608.132

[GRAPHIC] [TIFF OMITTED] T7608.133

[GRAPHIC] [TIFF OMITTED] T7608.134

[GRAPHIC] [TIFF OMITTED] T7608.135

[GRAPHIC] [TIFF OMITTED] T7608.136

[GRAPHIC] [TIFF OMITTED] T7608.137

[GRAPHIC] [TIFF OMITTED] T7608.138

[GRAPHIC] [TIFF OMITTED] T7608.139

[GRAPHIC] [TIFF OMITTED] T7608.140

[GRAPHIC] [TIFF OMITTED] T7608.141

[GRAPHIC] [TIFF OMITTED] T7608.142

[GRAPHIC] [TIFF OMITTED] T7608.143

[GRAPHIC] [TIFF OMITTED] T7608.144

[GRAPHIC] [TIFF OMITTED] T7608.145

[GRAPHIC] [TIFF OMITTED] T7608.146

[GRAPHIC] [TIFF OMITTED] T7608.147

[GRAPHIC] [TIFF OMITTED] T7608.148

[GRAPHIC] [TIFF OMITTED] T7608.149

[GRAPHIC] [TIFF OMITTED] T7608.150

[GRAPHIC] [TIFF OMITTED] T7608.151

[GRAPHIC] [TIFF OMITTED] T7608.152

[GRAPHIC] [TIFF OMITTED] T7608.153


</pre></body></html>
